App. 1
NOT TO BE PUBLISHED
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on
opinions not certified for publication or ordered published, except as specified by rule
8.1115(b). This opinion has not been certified for
publication or ordered published for purposes
of rule 8.1115.
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Nevada)
-----------------------------------------------------------------------

JULIET ERICKSON et al.,
Plaintiffs and
Appellants,
v.
COUNTY OF NEVADA,
Defendant and
Respondent.

C082927
(Super. Ct. No.
CU13079389)
ORDER MODIFYING
OPINION AND
DENYING REHEARING
[NO CHANGE IN
JUDGMENT]
(Filed Dec. 18, 2020)

THE COURT:
It is ordered that the opinion filed herein on November 30, 2020, be modified as follows:

App. 2
1. On page 12, the third sentence of the first full
paragraph that begins with “Indeed, Dollan, Nolan,
and Koontz all involved. . . .” is to be replaced with the
following sentence:
Indeed, Dolan, Nollan, and Koontz all involved
government demands that the landowner convey a
specific property interest to the public.
2. The following footnote is added to the end of
the last sentence on page 12:
In a petition for rehearing, appellants contend the
County’s conditions “would have required [them] to
spend considerable sums of money over an extended
period of time” to maintain the vegetation on their
property, even if the conditions would not have required them to convey any part of their land. For that
reason, appellants argue, their claim is comparable to
that in Koontz. But because appellants raise this factual claim for the first time in their petition for rehearing, we will not consider it. (People ex rel. Dept. of
Public Works v. Mascotti (1962) 206 Cal.App.2d 772,
779 [“ ‘points not previously argued will not be considered where raised for the first time on petition for rehearing’ ”].)
This modification does not change the judgment.

App. 3
BY THE COURT:
/s/
BLEASE, Acting P.J.
/s/
HULL, J.
/s/
MAURO, J.

App. 4
NOT TO BE PUBLISHED
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on
opinions not certified for publication or ordered published, except as specified by rule
8.1115(b). This opinion has not been certified for
publication or ordered published for purposes
of rule 8.1115.
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Nevada)
-----------------------------------------------------------------------

JULIET ERICKSON et al.,
Plaintiffs and
Appellants,
v.

C082927
(Super. Ct. No.
CU13079389)
(Filed Nov. 30, 2020)

COUNTY OF NEVADA,
Defendant and
Respondent.
The United States Supreme Court has identified
several limitations on the government’s ability to require a landowner to convey property as a condition of
obtaining a land use permit. The court has held conditions of this sort, known as “land-use exactions,” violate the takings clause of the Fifth Amendment unless

App. 5
there is a “nexus” and “rough proportionality” between
the government’s condition and the effects of the proposed land use.
In this case, appellants Juliet Erickson and Peter
Lockyer allege Nevada County (the County) violated
these principles when they sought a permit to build a
house and garage. The County granted their requested
permit but only on the condition that appellants maintain the trees and vegetation on part of their property
indefinitely. Contending this condition was an unconstitutional exaction, appellants filed suit and sought
compensation and a permit without this condition.
The court below agreed with appellants in part. It
agreed the County needed to issue appellants their
permit without the contested condition, though not because of the takings clause. It instead did so because it
believed the County required the condition based on its
mistaken reading of a County ordinance. The court
also agreed the County’s condition was an “exaction”
that lacked the required “nexus” and “proportionality.”
But although finding an improper exaction, the court
nonetheless rejected appellants’ request for compensation. In the court’s view, appellants would be entitled
to compensation only if the County’s conduct caused
extraordinary delay or was based on some illegitimate
motive. But the court found neither, explaining appellants suffered only ordinary delay in the permitting
process.
On appeal, appellants contend the trial court—in
requiring them to prove extraordinary delay or

App. 6
illegitimate motive—demanded more than is necessary under the United States Supreme Court’s exaction cases. Regardless of whether the trial court erred
in this regard, however, we find the court’s ultimate
conclusion sound: Appellants were not entitled to compensation. Appellants’ takings claim was solely premised on their exaction theory, but, unlike the trial court,
we find the County never imposed an “exaction.” As the
California Supreme Court has noted, “[i]t is the governmental requirement that the property owner convey some identifiable property interest that constitutes
a so-called ‘exaction’ under the takings clause. . . .”
(California Building Industry Assn. v. City of San Jose
(2015) 61 Cal.4th 435, 460-461 (California Building),
italics added.) But although the County certainly
sought to restrict appellants’ use of their property, it
never asked them to convey anything. We thus find no
exaction that would give rise to a takings claim and
affirm on that basis.
BACKGROUND
In March of 2011, appellants applied to the County
for a permit to build a house and garage.
The following month, the County provided several
comments to appellants’ application. Among other
things, the County noted that the proposed buildings
would impact a “visually important ridgeline” within
the meaning of the County’s Visually Important Ridgeline ordinance (Ridgeline Ordinance)—one of the
County’s ordinances intended “to guide the design,

App. 7
location, and development of new land uses and the alteration of existing uses.” (Nev. County Ord., § L-II
4.1.1.) According to the Ridgeline Ordinance, applicants must submit a management plan for projects the
County determines may impact “a visually important
ridgeline,” and this plan must “delineate specific protective measures and impact controls necessary to
minimize visual impact to the maximum extent possible.” (Nev. County Ord., § L-II 4.3.16.) Based on these
requirements, the County directed appellants to submit a management plan minimizing the potential visual impacts of their proposed house and garage.
In response to the County’s request, appellants
submitted a management plan discussing three mitigation measures that, in appellants’ view, addressed
the negative visual impact on the ridgeline. The plan
noted (1) the garage, the only structure having a potential negative visual impact, was “designed and oriented such that the height of various portions of the
building and roof slope match the existing slope of the
hillside,” (2) “[e]xisting mature and healthy trees located directly south of the building will remain to help
screen the building and establish the visual profile of
the ridgeline,” and (3) appellants planted native cedar
“to provide further screening as they mature.”
The County, however, disagreed that these measures
would be sufficient to address the project’s visual impact. To protect “the visual quality” of the ridgeline,
the County approved appellants’ management plan
subject to the following conditions: (1) the house and
garage could not exceed certain specified height limits;

App. 8
(2) the property owner must agree, in a recorded deed
restriction, (a) to replace dead or dying trees that are
removed from a designated part of the property and (b)
not to remove or thin trees in this designated area unless a biologist concludes the tree is dead or dying or a
fire district finds removal or thinning necessary for fire
safety purposes; and (3) the “existing native vegetation
located south of the proposed structures shall remain
standing on the property,” “[v]egetation removal shall
not expose the structures as viewed from” a certain
nearby road, and “[a]ll trees proposed for removal to
accommodate the construction of the residence and
garage shall be indicated on the construction site plans
and evaluated by the architect.” The County imposed
these conditions over appellants’ objections.
After unsuccessfully appealing the second and
third conditions to the County’s board of supervisors,
appellants filed a complaint and petition for writ of
mandate in Nevada County Superior Court. According
to appellants, the County’s conditions prohibiting them
“from removing trees or vegetation growing on” parts
of their property constituted an unlawful “exaction” in
violation of the Fifth Amendment of the United States
Constitution. Appellants asked the court to strike the
County’s tree maintenance conditions and award it
compensatory damages and other costs of suit.
In its initial decision, the trial court agreed the
County erred in imposing these conditions. The court
found the County failed to establish that appellants’
proposed home and garage would lie on a visually important ridgeline, and even if it did, the County failed

App. 9
to establish that the proposed house and garage would
impact the ridgeline. Even if these flaws were set aside,
the court continued, the County went too far in imposing the condition requiring a negative deed restriction.
That condition, the court found, went beyond what was
necessary to address the project’s potential impacts
and thus constituted an unconstitutional taking of
property. The court added that this negative easement
condition was also unconstitutionally vague. The court
remanded the matter back to the County and informed
the parties that it would set the trial on the compensation issue at a later date.
On remand, the County reconsidered and reapproved appellants’ application, subject to three conditions that in many respects mirrored the previous
imposed conditions. As conditions of approval, the
County wrote, (1) the house and garage could not exceed certain specified height limits; (2) the property
owner must agree, in a recorded deed restriction, (a) to
replace dead, downed, or dying trees that are removed
from a designated part of the property and (b) not to
remove or thin trees in this designated area unless a
biologist or arborist concludes the tree is dead or dying
or a fire district finds removal or thinning necessary
for fire safety purposes; and (3) the “existing native
vegetation located south of the proposed structures
shall remain standing on the property,” “[v]egetation
removal shall not expose the structures as viewed
from” any public roads or parks, and “[a]ll trees proposed for removal to accommodate the construction of
the residence and garage shall be indicated on the

App. 10
construction site plans and evaluated by the architect.”
The County’s second condition, although using language largely identical to that used in its earlier conditional approval, now covered an area that was about
a third smaller from the previous restricted area. The
County also, in its reapproval, made several findings
in support of its conclusion that appellants’ proposed
project would impact a “visually important ridgeline.”
After unsuccessfully appealing the new conditions
to the County’s board of supervisors, appellants filed a
supplemental complaint with the trial court. In their
supplemental complaint, appellants claimed the
County’s conditional reapproval suffered from the
same flaws the court found in the County’s previous
conditional approval.
The court agreed the County’s conditions remained flawed, though for reasons other than the ones
appellants raised. Although finding the County had
“remedied substantially all of the defects found present in the initial writ hearing,” the court now found
an additional flaw in one of the County’s conditions for
approval. The court concluded the County’s second
condition, the deed restriction, was inconsistent with
Civil Code section 815.3. Under section 815.3, the court
noted, counties may obtain conservation easements
that are voluntarily conveyed, but they may not demand conservation easements as a condition to issuing
a land use approval. Because, in the court’s view, the
County’s deed restriction condition was in effect a conservation easement, the court found the County’s attempt to impose this condition violated section 815.3.

App. 11
It thus directed the County to issue the building permit without this condition.
After further briefing from the parties, the court
modified its reasoning and expanded its ruling to cover
both the County’s second and third conditions. Setting
aside its finding based on Civil Code section 815.3, the
court now focused on the County’s Ridgeline Ordinance. The County purported to impose its three conditions based on the Ridgeline Ordinance, but, the
court found, that ordinance did not apply to individual
building permits like that here. Because the County
thus had no authority to impose these three conditions,
the court found all the conditions improper. The court
thus struck the two conditions appellants challenged—
that is, conditions two and three. The court also briefly
addressed whether the County’s attempt to impose
these conditions violated the takings clause. Although
the court earlier wrote the County’s actions resulted in
a taking, the court now explained no final judgment
had been issued on that topic and none would be issued
until after the inverse condemnation trial.
Following the inverse condemnation trial, the
court issued its final statement of decision on appellants’ petition and complaint. Agreeing with appellants, the court found the County’s tree maintenance
conditions “operate[d] as an exaction” and lacked the
required “nexus” and “rough proportionality” to the
effects of appellants’ proposed land use. Although the
court suggested these requirements of “nexus” and
“rough proportionality” would have been satisfied
had the Ridgeline Ordinance been applicable, it found

App. 12
neither requirement could be satisfied when, as here,
the County acted without authority.
But although finding an improper exaction, the
court ultimately found no unconstitutional taking of
property had occurred. The County’s conditions did not
result in a permanent taking, the court wrote, because
the court eliminated those two conditions in the writ
proceedings. Nor, the court found, did the County’s conditions result in a compensable temporary taking
considering Landgate, Inc. v. California Coastal Com.
(1998) 17 Cal.4th 1006. The California Supreme Court
there considered “whether a legally erroneous decision
of a government agency during the development approval process resulting in delay constitutes a temporary taking of property.” (Id. at p. 1018.) It ultimately
concluded it did not because a normal delay, by itself,
does not constitute a temporary taking (id. at p. 1021),
unless the government’s conduct was “so objectively
unreasonable as to give rise to the inference that it was
adopting that position solely for purposes of delay or
some other illegitimate reason” (id. at p. 1025). Applying Landgate, Inc.’s reasoning, the trial court rejected
appellants’ takings claim because they had not shown
that the County’s conduct either caused “something
more than mere delay in the permit process” or was
based on some illegitimate motive.
Appellants timely appealed.

App. 13
DISCUSSION
I
A
The takings clause of the Fifth Amendment, made
applicable to the states by the Fourteenth Amendment,
“provides that private property shall not ‘be taken
for public use, without just compensation.’ ” (Lingle v.
Chevron U.S.A. Inc. (2005) 544 U.S. 528, 536 (Lingle).)
The United States Supreme Court has identified
two general categories of takings: “physical takings”
and “regulatory takings.” (Tahoe-Sierra Preservation
Council, Inc. v. Tahoe Regional Planning Agency (2002)
535 U.S. 302, 321.) A physical taking, the classic type
of taking, is based on the government’s “ ‘ “direct appropriation” of property, or the functional equivalent of a
“practical ouster of [the owner’s] possession.” ’ [Citations.]” (Lingle, supra, 544 U.S. at p. 537.) Government
conduct that matches this description (e.g., when the
government seizes property under its condemnation
power) will generally be deemed a taking based on
“the straightforward application of per se rules.”
(Tahoe-Sierra Preservation Council, Inc., at p. 322.) A
regulatory taking, in turn, is based on government regulation that, generally stated, goes “ ‘too far’ ” in restricting a landowner’s use of his or her property.
(Lingle, at p. 537.) To determine whether a regulation
has gone “too far,” courts usually—rather than apply
per se rules—consider “a complex of factors including
the regulation’s economic effect on the landowner,
the extent to which the regulation interferes with

App. 14
reasonable investment-backed expectations, and the
character of the government action.” (Palazzolo v.
Rhode Island (2001) 533 U.S. 606, 617.)
Apart from these two general categories of takings, the Supreme Court has also identified a “special”
category of takings claims for “land-use exactions.”
(Lingle, supra, 544 U.S. at p. 538.) A land use exaction
occurs when the government demands property from a
land use permit applicant in exchange for permit approval. (See Koontz v. St. Johns River Water Management Dist. (2013) 570 U.S. 595, 599 (Koontz).) The
leading examples of “exactions” come from the Supreme Court’s decisions in Nollan v. California Coastal
Comm’n (1987) 483 U.S. 825 (Nollan), Dolan v. City of
Tigard (1994) 512 U.S. 374 (Dolan), and Koontz. In
Nollan, the California Coastal Commission had conditioned its grant of a permit to landowners who sought
to rebuild their house on their agreeing to transfer to
the public an easement across their property. (Nollan,
at p. 827.) In Dolan, a city had conditioned its grant of
a permit to a property owner who sought to increase
the size of her existing retail business on her agreeing
to dedicate a portion of her property to the city for use
for a bike path and for flood control purposes. (Dolan,
at p. 377.) And in Koontz, a water district had conditioned its grant of a permit to a landowner who sought
to develop 3.7 acres of an undeveloped property on his
agreeing to spend money to improve certain lands the
water district owned. (Koontz, at pp. 599-602, 614.)
To determine whether these types of demands are
impermissible, courts apply a “special application of

App. 15
the ‘doctrine of “unconstitutional conditions.” ’ ” (Lingle,
supra, 544 U.S. at p. 547.) Under that doctrine, the government may not ask a person to give up a constitutional right (e.g., the right to receive just compensation
when property is taken for a public use) “in exchange
for a discretionary benefit conferred by the government where the benefit sought has little or no relationship to the property.” (Dolan, supra, 512 U.S. at p. 385.)
Applying that doctrine in the context of land use exactions, the Supreme Court has placed two requirements
on governmental entities when they demand property
from applicants in the land use permitting process.
The government must show (1) a “nexus” between the
government’s legitimate regulatory interest and the
property demanded (id. at p. 386), and (2) “ ‘rough proportionality’ ” between the property demanded and
“the impact of the proposed development” (id. at p.
391).
Unlike most takings claims, exaction claims are
not necessarily premised on the taking of any property.
As the Supreme Court explained in Koontz, the principles undergirding the court’s exaction cases “do not
change depending on whether the government approves a permit on the condition that the applicant
turn over property or denies a permit because the applicant refuses to do so.” (Koontz, supra, 570 U.S. at p.
606.) In both circumstances, the court found, the condition is improper if it lacks the requisite nexus and
rough proportionality. (Ibid.; see also id. at p. 607 [“Extortionate demands for property in the land-use permitting context run afoul of the Takings Clause not

App. 16
because they take property but because they impermissibly burden the right not to have property taken
without just compensation.”].) But, the court emphasized, “[t]hat is not to say . . . that there is no relevant
difference between a consummated taking and the denial of a permit based on an unconstitutionally extortionate demand. Where the permit is denied and the
condition is never imposed, nothing has been taken.
While the unconstitutional conditions doctrine recognizes that this burdens a constitutional right, the Fifth
Amendment mandates a particular remedy—just compensation—only for takings. In cases where there is
an excessive demand but no taking, whether money
damages are available is not a question of federal constitutional law but of the cause of action—whether
state or federal—on which the landowner relies.” (Id.
at pp. 608-609.)
B
Appellants’ principal contention on appeal concerns the trial court’s finding that they were not entitled to compensation. As they note, the court found
the County’s conditions “operate[d] as an exaction” and
lacked a “nexus” and “rough proportionality” to the
effects of appellants’ proposed land use. And as they
further note, the court nonetheless declined to rule in
their favor because they had failed to show, in addition
to the lack of “nexus” and “rough proportionality,” that
the County’s conduct either caused extraordinary delay or was based on some illegitimate motive. According to appellants, the court erred in imposing this third

App. 17
requirement on top of the nexus and proportionality
requirements.
In evaluating appellants’ claim, we consider first
whether the County’s conditions could be characterized as an “exaction” subject to the “nexus” and “proportionality” requirements. Because we conclude they
could not, and because appellants’ takings claim was
solely premised on their exaction theory, we find the
trial court appropriately declined to rule in appellants’
favor on their takings claim.
The California Supreme Court’s reasoning in
California Building, supra, 61 Cal.4th 435 is particularly instructive to our analysis. The court there considered what qualifies as an “exaction” within the
meaning of Nollan, Dolan, and Koontz—the United
States Supreme Court’s lead exaction cases. Reviewing
these three cases, the court found nothing in these
cases suggested “the unconstitutional conditions doctrine . . . would apply where the government simply
restricts the use of property without demanding the
conveyance of some identifiable protected property interest (a dedication of property or the payment of
money) as a condition of approval.” (California Building, at p. 460.) Rather, the court explained, “[i]t is the
governmental requirement that the property owner
convey some identifiable property interest that constitutes a so-called ‘exaction’ under the takings clause
and that brings the unconstitutional conditions doctrine into play.” (Id. at pp. 460-461.)

App. 18
Based on this reading of Nollan, Dolan, and
Koontz, the court upheld a residential inclusionary
zoning ordinance that required developers of residential properties of 20 or more units to set aside 15 percent of units for sale at an affordable price. Although a
building association contended the ordinance was an
unconstitutional exaction under the state and federal
takings clauses, the court found the ordinance could
not be characterized as an exaction because it did not
require developers to convey any property interest.
(California Building, supra, 61 Cal.4th at p. 461.) “Rather than being an exaction,” the court explained, the
ordinance falls within “municipalities’ general broad
discretion to regulate the use of real property to serve
the legitimate interests of the general public and the
community at large.” (Ibid.)
Other courts have found similarly on facts more
comparable to our own. The Federal Circuit’s decision
in Norman v. United States (Fed.Cir. 2005) 429 F.3d
1081 is a notable example. The appellants there were
real estate developers who sought to develop commercial buildings on lands previously used for ranching
and agricultural activities. (Id. at p. 1085.) During the
development process, the Army Corps of Engineers
identified several acres of wetlands that would be
impacted by the proposed project. (Ibid.) To mitigate
for the loss of those wetlands, the Army Corps of Engineers issued a permit requiring the appellants to
record deed restrictions to protect certain other wetlands they owned as “ ‘wetland preserves and wildlife
habitat in perpetuity.’ ” (Id. at p. 1087.) The appellants

App. 19
afterward filed suit alleging, among other things, that
the permit effected an unconstitutional exaction under
the logic of Nollan. (Norman, at p. 1089.) But the Federal Circuit disagreed. Nollan, the court explained,
“involved the use of a permit process to exact from a
landowner an easement allowing public access across
his land”—a type of physical intrusion. (Norman, at p.
1089.) But “[n]o such physical intrusion” resulted from
the permit’s requirement that the appellants protect
certain wetlands on their property. (Ibid.) And given
the absence of any physical intrusion or loss of exclusive possession, the court found the permit did not
“ ‘exact’ possession of the land.” (Ibid.)
We likewise find the County’s conditions here cannot be characterized as an “exaction” under the Nollan,
Dolan, and Koontz framework. As the California
Building court explained, “[i]t is the governmental requirement that the property owner convey some identifiable property interest that constitutes a so-called
‘exaction’ under the takings clause and that brings
the unconstitutional conditions doctrine into play.”
(California Building, supra, 61 Cal.4th at pp. 460-461,
italics added.) Indeed, Dollan, Nolan, and Koontz all
involved government demands that the landowner
convey a specific property interest to the public. (See
Koontz, supra, 570 U.S. at pp. 599, 614 [demand for
monetary expenditure]; Dolan, supra, 512 U.S. at p.
377 [demand for land for bike path and flood control
purposes]; Nollan, supra, 483 U.S. at p. 827 [demand
for easement across property].) They all involved, in
other words, government demands that if carried out

App. 20
outside of the permitting process would have involved
“per se physical takings” of property from the landowner. (Lingle, supra, 544 U.S. at pp. 546-547; see also
Koontz, at p. 614 [noting petitioner’s claim rested not
on “regulatory taking” principles but on a “ ‘per se [takings] approach’ ”].)
But not so here. The County’s permit conditions,
reduced to their essence, required appellants to maintain a tree screen to prevent the neighboring public
from seeing their garage. To achieve this end, the
County directed appellants to maintain the trees and
vegetation located in a certain area of their property.
None of the County’s conditions interfered with appellants’ right to exclusive possession of their property.
Nor did any of the County’s conditions require appellants to convey any part of their property. The County
instead sought to restrict appellants’ use of a portion
of their property to maintain the existing tree screen.
And under the reasoning of California Building, a government condition that “restricts the use of property
without demanding the conveyance of some identifiable protected property interest” is not an “exaction.”
(California Building, supra, 61 Cal.4th at p. 460.)
Appellants never contend otherwise in their briefing. They instead argue the County forfeited this issue
by failing to file a cross-appeal challenging the court’s
finding that the permit operated as an exaction. In
support, appellants rely on Preserve Poway v. City of
Poway (2016) 245 Cal.App.4th 560 (Preserve Poway)
and Estate of Powell (2000) 83 Cal.App.4th 1434 (Estate of Powell)—two cases where the respondent, who

App. 21
filed no cross-appeal, sought “reversal of the judgment
and entry of a new judgment more favorable to him.”
(Estate of Powell, at p. 1439; see also Preserve Poway,
at p. 587.)
But the County does not seek “reversal of the judgment and entry of a new judgment more favorable to”
it. It instead seeks affirmance of the judgment on a
different ground. And as both of appellants’ cited
cases explain, that is perfectly permissible. The court
in Estate of Powell, for example, explained that Code of
Civil Procedure section 906 allows a respondent who
has not filed a cross-appeal “ ‘to assert a legal theory
which may result in affirmance of the judgment.’ [Citation.]” (Estate of Powell, supra, 83 Cal.App.4th at p.
1439.) The Preserve Poway court likewise noted that
Code of Civil Procedure section 906 “is intended to permit a respondent to assert a legal theory that will result in affirmance of the judgment notwithstanding an
appellant’s contentions.” (Preserve Poway, supra, 245
Cal.App.4th at p. 586.)
II
Finally, appellants contend the trial court should
have struck all the County’s permit conditions rather
than only the second and third conditions. But appellants fail to show they sought this relief in the trial
court proceedings, and we find the claim forfeited as a
result.
In their pleadings, appellants asked the trial court
to strike only those “restrictions described in the

App. 22
complaint”—namely, the conditions prohibiting them
“from removing trees or vegetation growing on” parts
of their property. The County’s second and third conditions fit this description, but the first condition—which
imposed a height restriction—did not. The court below
thus described appellants’ challenge in the writ proceedings this way: “Petitioners challenge Condition #2
and Condition #3 of the Management Plan required by
the County in connection with the issuance of their
building permit.” And the court ultimately granted the
very relief appellants requested by striking these two
conditions.
Yet now appellants claim the court’s ruling should
have offered broader relief than they requested in their
pleadings. Because they failed to demonstrate they
sought this relief below, however, we find the claim forfeited on appeal. (See Dietz v. Meisenheimer & Herron
(2009) 177 Cal.App.4th 771, 798 [party forfeited claims
“by failing to demonstrate either that it preserved
these arguments in the trial court, or that it may
properly raise such arguments for the first time on
appeal”].)
DISPOSITION
The judgment is affirmed. The County is entitled
to recover its costs on appeal. (Cal. Rules of Court, rule
8.278(a).)
/s/
BLEASE, Acting P.J.

App. 23
We concur:
/s/
HULL, J.
/s/
MAURO, J.

App. 24
S. PAONE
FILED
AUG 17 2016
Superior Court of the
State of California
County of Nevada
IN THE SUPERIOR COURT OF
THE STATE OF CALIFORNIA
IN AND FOR THE COUNTY OF NEVADA
JULIET ERICKSON
and PETER LOCKYER,
Petitioners/Plaintiffs,

CASE NO.: CU13-079389
STATEMENT
OF DECISION

vs.
County of Nevada,
Respondent/Defendant,
This matter involving joined claims of administrative mandamus and inverse condemnation came on for
hearing and trial to the Court without a jury on three
separate occasions. On motion by the respondent and
defendant County of Nevada (“respondent”, “defendant”, or “County”), and over the objection of plaintiffs
and petitioners Erickson and Lockyer (“plaintiffs”, “petitioners”, “the Lockyers”, or [in citing arguments] “Erickson”) the proceedings in mandamus were bifurcated
from the proceedings in inverse condemnation, and the
former were heard first. Plaintiffs and petitioners
throughout have been represented by Haley & Bilheimer, of Nevada City (Allan S. Haley and John G.

App. 25
Bilheimer, Esqq.), and Montague & Viglione, of Sacramento (John D. Montague and Dennis Viglione, Esqq.).
Defendant and respondent was represented throughout by the Office of County Counsel (Alison BarrattGreen, Amanda Uhrhammer and Scott A. McLeran,
Esqq.) and also by Colantuono, Highsmith & Whatley,
of Grass Valley and Los Angeles (Michael G. Colantuono, Jennifer L. Pancake and Ryan Thomas Dunn,
Esqq.).
Notices were given as required by law. At each
stage of the proceedings, the Court considered the evidence and arguments of counsel.
The action generally involves Erickson’s efforts to
secure a building permit for the construction of a residence, garage/office on property situated along a ridge
top above Lake Wildwood, Nevada County California.
The Nevada Irrigation District owns adjoining property on which there are located two large highly visible
brown water storage tanks. Additionally, there is located on the NID property a camouflaged cell communications tower, the construction of which was opposed
by Erickson and which was the subject of a separate
proceeding that is now final following appeal. The approval and construction of the communications tower
happened largely concurrent with Erickson[’s] permit
application and during the pendency of this action.
Other structures are also visible on the ridge top.

App. 26
PHASE ONE: INITIAL DETERMINATION
OF PETITIONERS’ WRIT
(In its Tentative Decision, the Court relied upon
and incorporated its prior findings in the Writ phases.
One or both parties requested that these findings be
set forth in full in this Statement of Decision.)
The Petition for Writ of Mandate initially was
granted. Further, the Court found Condition #2 [ ]
constituted a taking.1 The matter was remanded for
further administrative proceedings to correct the problems found by the Court.
The Phase One Writ was decided on the following
basis:
A) Factual Background
Petitioners applied for a building permit. County,
citing its Visually Important Ridgeline (VIR) ordinance2, required a Management Plan for trees along
the ridge line stating that a VIR was implicated by Petitioners’ proposed project. Petitioners, through their
architects, submitted a proposed Management Plan
dated June 1, 2011 to address the County’s concerns.
(AR 008-009) On August 12, 2011, after reviewing the
plan and the County’s contour maps, County provided
1

This finding was subsequently clarified as “prospective and
contingent” prior to the Eminent Domain Phase of the proceedings in the Court’s Pretrial Rulings and Order filed 8/25/2015.
2
Nevada County Land Use Code Section L-II 4.3.16, quoted
in full, below.

App. 27
an initial conditional approval requiring, among other
things, 1) a maximum height limitation for Petitioners buildings, 2) the recordation of a deed restriction
concerning maintenance, removal and replacement of
trees within a designated area, and 3) a restriction on
removal of native vegetation to the south of the proposed structures, review of the same during construction and site planning processes and a prohibition of
removal that would expose the structures as viewed
from Pleasant Valley Road. However, in issuing its conditional approval, the County expanded the proposed
areas of protective tree cover, ultimately making it
quite a bit bigger3 than the architect’s proposal. (AR
109)
Petitioners objected to the second and third conditions and to the scope of the restricted area. After hiring SCO Engineering to prepare and submit line of
s[ight] analysis, Petitioners objected to the larger restricted area and submitted a proposed modified restricted area.
Following meetings attended by County Counsel
and the Petitioners’ attorney, County staff made a site
visit and made further changes to the restricted area.
These changes were rejected by Petitioners, which resulted in an impasse (AR 491-492), and a revised Management Plan Condition Approval was issued on July
12, 2012.
3

Hereafter, the Court may refer to the area proposed to be
covered by the restrictive deed, in whatever configuration, as the
“restricted area”.

App. 28
About the same time, the County approved the
construction of a cell phone tower on the property adjacent to that of the Petitioners. Petitioners contended
that the tree protection on their property was really
intended to provide backdrop for the cell tower, not for
their proposed structures.
Petitioners appealed Conditions #2 and #3 to the
Board of Supervisors. County staff presented its case
with respect to each of the line of sight survey lines
identified by SCO in defining the restricted area, superimposed on the Counties GIS mapping system. For
the purposes of this proceeding, as identified in the
BOS appeal, they are:
Profile #I: Green line
Profile #2: Red line
Profile #3: Blue line
Profile #4: Yellow line
These designations are made with respect to the
administrative record AR 0211-0217, AR 0112-0114.
The profiles largely dictated the configuration of the
restricted area to the south and east. To the west, an
additional area of restriction was imposed to block
views from an existing residence (seen on the right in
AR0217), which said area was included, per staff, because “that was an area that the appellants’ attorney
had originally proposed”. (AR 0113)
Staff concluded that its restricted area configuration was justified by the Petitioners’ SCO Survey data[:]

App. 29
So the conditions and the restrictions with regard to the argument that these restrictions
go far beyond what is required to screen the
rooftop, I think in that last analysis it indicates that the polygon that we ultimately
came up with was essentially justified by the
GSO (sic) surveys and the appellants state
that these surveys prove that the building be
at the point of survey but the area behind that
point of origin makes that sight invisible and
to that we disagree because of the topography
and the elevation would change the profile
line of sight. (AR 0113-0114)
This “justification” is anything but clear.4 However, it appears what staff was arguing was that,
based on topography alone, the project would be visible
within line of sight Profiles # 1, 2, and 4 (assuming no
vegetation), but not visible within Profile #3. As explained by staff:
The standards set forth in, again, 4.3.16 C.1
requires that in no case shall the roof line or
any portion of the structure extend above the
visually important ridge line. And to this I
want to state that if – in the prior appeal, if
we use the argument that the ridge line is the
ground line, then we have a 20 foot conflict.
But we have consistently used the vegetation. So as long as the vegetation screens the
home and the proposed structure, staff was
okay with that. The only thing that the
4

Petitioners contend that County staff simply were unable
to properly read the line of sight surveys.

App. 30
management plan is intended to do is to protect those areas.5
Because of this conclusion, vegetation screening
was required within the polygonal shaped restricted
area. (AR 0114) Staff concluded:
Therefore, staff concludes approval of this management plan is only focused on the standards
set forth in Section 4.3.16, which are intended
to protect the visually important ridge lines,
and that the management plan approval essentially incorporates those three recommendations of the appellants’ own architect on
their June 7th management submittal as
well as the line of sight profiles submitted by
SCO Engineering. And therefore staff is recommending that you adopt the attached resolution to today’s staff report and deny this
appeal. [ ] (AR 0115)
Thereafter, the BOS denied the appeal in BOS
Resolution 12-481. Petitioners filed their writ petition
and complaint for inverse condemnation. This ruling
addresses the Petition for Writ of Mandate.

5

This explanation was made in reference to the Petitioners’
appeal of the cell tower on the adjoining NID land in which Petitioners argued that the cell tower constructed above grade should
be subject to the same visual standards as the Petitioners’ project.
The BOS determined that the disguised cell tower within the tree
canopy did not visually impact the subject ridgeline. That appeal
was decided by the BOS as the agenda item immediately prior to
the Petitioners BOS appeal herein.

App. 31
B) Standard of Review
Pursuant to Code of Civil Procedure § 1094.5 (b),
the inquiry in an administrative writ proceeding shall
extend to whether the respondent has proceeded without, or in excess of, jurisdiction; whether there was a
fair trial; and whether there was any prejudicial abuse
of discretion. To prevail on grounds of abuse of discretion, plaintiff must establish that the County did not
proceed in the manner required by law, its decision is
not supported by the findings, or the findings are not
supported by the evidence.
Where it is claimed that an agency’s decision is not
supported by findings, the inquiry is whether the
agency rendering the adjudicatory decision set forth
findings that enable a reviewing court to trace and examine the agency’s mode of analysis and bridge the analytical gap between raw evidence and the decision or
order. Topanga Association for a Scenic Community v.
County of Los Angeles (1974) 11 Cal.3d 506, 515.
Petitioner has the burden of proof in an administrative mandamus proceeding in establishing that an
agency’s decision should be set aside. Arwine v. Board
of Med. Examiners (1907) I 51 Cal. 499, 503; Evidence
Code §664. In reviewing the evidence, all conflicts must
be resolved in favor of the prevailing party. Western
States Petroleum Assoc. v. Superior Court (1995) 9
Cal.4th 559, 571.

App. 32
C) The VIR Ordinance:
Section L-II 4.3.16 Visually Important Ridgelines and Viewsheds
A. Purpose. To protect the natural appearance
and aesthetic quality of visually prominent ridgelines and large-scale viewsheds.
B.

Definitions.

1. Visually Important Ridgelines And Viewsheds
– Visibly prominent ridgelines, and large-scale
viewsheds considered to be of high natural scenic
quality and are highly visible from public roadways, parks and other public places.
C.

Standards.

1. In no case shall the roofline or any portion of
a structure extend above a visually important
ridgeline.
2. Site grading shall not alter the existing silhouette of visually important ridgelines.
3. When the County determines that a project
may impact a visually important ridgeline or
viewshed, a Management Plan shall be prepared
by a land use planner, an architect, or landscape
architect. This determination may be based on a
County-wide or area-wide inventory of visibly
prominent ridgelines and large-scale viewsheds,
or, in the absence of an inventory, upon a determination that the proposed project may be likely to
impact a visually important ridgeline or viewshed.
The Management Plan shall include a Visual Analysis which shall normally include a determination

App. 33
of the geographical location and level of visual
quality of the defined area. It shall normally include a determination of the number and type of
existing and potential viewers, viewing distance,
angle, focal point, and landscape and topographic
variety and uniqueness. The Management Plan
shall delineate specific protective measures and
impact controls necessary to minimize visual impact to the maximum extent possible.
D) Analysis
By their Petition for Writ of Mandate, Petitioners
challenge Condition #2 and Condition #3 of the Management Plan required by the County in connection
with the issuance of their building permit. These conditions raise the following issues in this proceeding
and whether required findings on such issues were
made below, and if so, whether the findings were supported by substantial evidence. The issues presented
by Conditions #2 and #3 are:
1. Whether a visually important ridgeline (VIR)
was found to exist;
2. If so, whether any portion of the project extends above the VIR;
3. If so, whether the project is likely to impact
the VIR;
4. If so, whether a Management Plan may be required;

App. 34
5. If so, whether the Management Plan is reasonably related to the impact of the project
6. If not, are the County’s proposed conditions a
“taking” for the purposes of the companion inverse condemnation cause of action.
Petitioners assert three grounds for writ relief in
their Corrected Complaint filed May 17, 2013:
1)

No findings based on substantial evidence;

2) The restrictions imposed are not reasonably
necessary to effectuate a substantial governmental
purpose; and
3) The County’s conduct constitutes a taking in
violation of Plaintiffs’ 5th Amendment constitutional
rights.
In its Opposition, County argued that if the court
determines at the writ stage that there has been no
compensable taking, then the inverse condemnation
cause of action need not be tried. Petitioners responded
in their Reply Brief that Healing v. California Coastal
Com. (1994) 22 Cal.App.4th 1158 dictates that “it is at
the takings trial that the court determines whether a
compensatory taking has occurred.” Thus, Petitioners
argued, while the Court at this stage may find the evidence sufficient to show a taking, the absence of such
a finding does not equate to a finding that no taking
has occurred, in which case, that issue is preserved for
trial in the inverse condemnation phase. Petitioners
are correct.

App. 35
Separately, County argued that it is not properly
held to a strict standard in evaluation of the evidence.
County argued the evidence and findings are simply
good enough to justify to the conditions imposed. Petitioners argued that the County’s justification does not
even meet a reduced standard, that is, that the analytical gap is simply too wide to bridge in the record before the Court. The Court also agrees.
I)

Visually Important Ridgeline Finding

Petitioners first argued that the County failed to
make any findings that the ridgeline on which Petitioners propose to build their home is a Visually Important Ridgeline. The Court agrees.
County argued that Petitioners waived any argument that the ridgeline in question was a VIR; however, the imposition of a Management Plan pursuant
to the VIR ordinance is predicated on a finding that the
ridgeline in question is in fact a VIR as defined in the
ordinance. In order [for] the Petitioners to challenge
the constitutionality of the negative easement, they
must be permitted to establish all facts supporting
that challenge. As Petitioners [ ] point out, constitutional issues can be raised at any time because neither
the BOS nor the Planning Department sit in adjudication of constitutional issues.
The Court also notes that Petitioners did not
waive this argument by failing to raise the issue at the
appeal hearing. While not articulated perfectly, Petitioners did object, stating, “There was no evidence

App. 36
whatsoever presented at the Verizon hearing, however,
that the ridgeline when viewed from the east was visually significant to anyone.” [AR 0068-0069.]
County argued that Petitioners’ public stance in
the cell tower proceedings shows their acknowledgment that the ridge is prominent, a fact found true in
BOS Resolution 12-481. But in that proceeding, no determination was made that the ridge was a VIR. Further, even if this served as an evidentiary basis for a
VIR finding, it cannot be the sole evidentiary finding
because 1) Petitioners were entitled to change their position because the County rejected application of the
VIR ordinance in that proceeding and made no VIR
finding6, 2) other evidence of ridgeline visibility is insufficient to establish the ridgeline as a VIR7, 3) the
assumption of the existence of a VIR that permeated
the proceedings is not a substitute for evidence or required findings, 4) the Petitioners’ cooperation in attempting to comply with the County’s demands is not
6

In that proceeding, then on appeal, this Court found that,
contrary to the County position, the VIR ordinance should have
been considered under the facts of that case. The Appellate Court
affirmed this trial court, but found oppositely, that is, that the
VIR ordinance had no applicability to the communications tower
application. In essence, this Court’s analysis affirming County’s
approval of the cell tower relied on an attempt to harmonize various County ordinances, but the Court of Appeal decided the matter on the basis of the application of one ordinance being more
specific than the other. The appeal is now final and County is judicially estopped to argue that a VIR finding was made in the cell
tower proceedings because the VIR ordinance was not at issue.
7
Visibility supports, but does not equate to “prominent” or
“important” or “scenic”.

App. 37
a substitute for evidence or required findings, 5) the
facts must show that the ridge is not only prominent,
but that it is “of high natural scenic quality”. As to this
last point, the facts show that no “scenic” finding was
ever made, no evidence was produced as to any scenic
value, and in fact, the prominent scenic features of the
ridge are two large NID water tanks sitting just below
the summit of the ridgeline, sadly lacking in any natural scenic beauty.8
The County relied on site plan notes from 4/4/11
providing that the County’s Zoning Administrator had
determined that the ridgeline was a VIR. [AR 0485.]
The appeal findings state: “Whereas, when reviewing
the Appellants’ building pemlit the Planning Department determined that the height of the two-store garage and office structure atop this ridgeline was likely
visible from portions of Pleasant Valley Road and
therefore pursuant to L-II 4.3.16 of the Zoning Ordinance required that a Management Plan be prepared.”
[AR 0286-0288.]
This finding is also insufficient as it provides no
factual basis for the Zoning Administrator’s decision.
Rather, it simply assumes the correctness of that determination to support the conditions imposed under
the ordinance. All other factual findings of BOS

8

And, yes, even though the tanks are not sitting strictly atop
the ridgeline, they needed to be considered when making a finding
of scenic value. They are part and parcel of the panoramic context
of this ridgeline.

App. 38
Resolution 12-481 likewise make the same assumption
of correctness.
County argued that Petitioners’ cooperation in
submitting a Management Plan shows that they failed
to object. This is disingenuous. The fact that the Petitioners cooperated toward the goal of the County
issuing their permit should not be confused with
“agreement” under circumstances where the cooperation was subsequently withdrawn at the point they
believed the County was overreaching. As Attorney
Haley pointed out in his April 10, 2012 letter, the sequence of events was an evolving one. (AR0491-0492)
Finally, County argued that the VIR finding is of
little import. The Court could then simply refer the
matter back to the BOS for the correct determination,
pointing out something to the effect that it was clear
at this time what the outcome would be. This argument
is as troubling as it is improper, invoking the concept
that the BOS would simply make a pre-determined
finding without a meaningful hearing and in direct violation of the Petitioners’ due process rights.
II) Findings Regarding Impacts
Petitioners’ second argument is that there are no
findings in the administrative record showing how Petitioners’ project may impact the ridgeline. As noted
above, staff presentation articulated the County’s position – “we have consistently used the vegetation (as the
ridgeline). So as long as the vegetation screens the
home and the proposed structure, staff was okay with

App. 39
that.” However, the VIR ordinance standards are that
“In no case shall the roofline or any portion of a structure extend above a visually important ridgeline.”
County relies on its finding that the roofline will be
slightly above the ridgeline elevation, without reference to the vegetative tree cover which the County defines as the ridgeline. There was no finding or evidence
of any kind that the roofline in this case would extend
above the existing vegetation. Rather, the County’s action was based entirely on apprehension that the vegetative canopy may one day be removed. In fact, the
entire stated purpose of the Management Plan was explained by staff to the BOS as follows: “The only thing
that the management plan is intended to do is to protect those areas” of existing vegetation.
The VIR ordinance provided that a Management
Plan may be required when the County determines the
project “may be likely” to impact a VIR. The apprehension expressed by the County fails to meet the “may be
likely” test. No finding or evidence was in the record
showing more.
The line of sight surveys do not support the county
position. While they all show topography, none show
the project lacking screening tree cover. The only other
evidence in the record is the representation that staff
made “notes” from a site visit to verify and consider the
line of sight surveys and these notes (which are not in
the record either verbatim or in summary form) are the
basis for the configuration of the restricted area. (AR
0111) Again, the Court is left with no tangible evidence

App. 40
to support application of the VIR ordinance, and hence,
the negative easement deed.
However, even assuming the County had made
required findings, the conditions attached to the
Management Plan go too far. For example, under Condition #2 of the plan, Petitioners are required to maintain in perpetuity trees that are several hundred feet
downslope and removed from the ridge top. This is the
area bounded by Profiles #3 and #4. Apparently, the determination for this area was based only on Profile #4,
where, because of the shallow incline, there exists more
of a horizontal buffer of trees (which, it is noted, are
not drawn to scale). The topography at Profile #3, to
the immediate left of Profile #4, is steeper. Obviously,
there must be some transition between the two, but it
appears that was not taken into account. Further, even
assuming that Profile #4 is the worst case scenario,
it is clear that only trees immediately adjacent to the
proposed structures need be maintained—enough
trees to provide canopy coverage to the ridgeline, not
all trees to the bottom of the property. Lower trees are
important only if the upper ones are removed.
Petitioners briefing made the same argument as
to Profiles #1 and #2. Even without Petitioners screening between the garage and the NID tanks, existing
trees on NID property already screen the proposed garage. The state of the evidence is not to the contrary, yet
the Petitioners are required to perpetually maintain
trees in an area blocked by neighboring trees.

App. 41
III) Permanent Dedication
Next, Petitioners contended that there is no connection between the potential impact of the project and
the requirement for a permanent dedication. On the
record before the Court, and for the reasons set forth
above, the Court agrees. The proposed negative declaration is unsupported by the facts, and is overbroad,
thus failing to show the proper nexus between the project and the condition. Because of this, the permanent
dedication is constitutionally infirm and constitutes a
taking or an exaction. The value of the taking is a question to be resolved at the trial in this matter set for
July 22, 2014.
IV) Vagueness
Lastly, Petitioners argued that the negative easement required by the County is unconstitutionally
vague and impossible to enforce. Again, the Court
agrees.
Petitioners alleged that the terms of the negative
easement are unconstitutionally vague and unenforceable. For example, Petitioners state that terms such as
the “thinning of trees” is vague; that the removal or
thinning required depends upon an evaluation of an
unknown biologist who may be listed on the County
website and whose credentials are unspecified; there
are no provisions for any review or appeal; and that the
easement does not clearly provide a description of replacement trees, as there is an unknown size, unknown
number, and an unknown ratio.

App. 42
However, the negative easement specifies that the
biologist shall be qualified and listed on the Planning
Department website. It further states that thinning
shall only be completed as recommended by the Penn
Valley Fire District for fire-safety purposes. The ratio
of replanted trees shall be specified by the biologist.
While the terms are generalized, it is written with
certain hard-set facts and factors to clarify the openended terms as the needs arise. If thinning of trees is
done, it’s with approval of the Fire District. Replanting
of trees shall be specified by the biologist who is named
on the Planning Department’s website. If a specific
name were provided in the easement, it could not be
enforced if that individual were to retire or be unavailable. The terms of the easement are flexible and elastic,
allowing for eventualities that may ensue over the
course of many years.
That said, the deed restriction is fatally vague.
First and foremost, no mechanism was included in
the deed or in County ordinances for the resolution of
potential conflicts among the property owners, the
County, the biologist, and the fire department. No avenue of relief is afforded concerning the decisions of any
agency or person.
Secondly, as a practical matter, County could not
confirm at oral argument that any biologist was on
board or listed at its website, leaving the condition illusory.

App. 43
Third, the restriction failed to address the impact
of additional man planted or natural trees or new
growth that might impact sightlines to the proposed
structures. It restricted any tree removal to dead or dying trees (unless the term “thinning” also includes removal), including those trees that presently do not
exist, and it does so in perpetuity.
Fourth, the term “thinning” was fatally vague. One
cannot determine if it means removal of limbs or removal of trees. While it is also fatally overbroad, it
failed to address thinning of seedlings and small trees
that would naturally be seeded and grow from the existing canopy.
Fifth, the deed provided no standards for evaluations made by a qualified biologist, other than to determine if a tree is dead or dying, and then to impose
conditions of replacement. It was unclear whether the
biologist can or must be qualified to consider or recommend other actions to save a tree, or to implement
generally accepted arboricultural, forestry or fire prevention standards and practices.
Sixth, while the deed addresses fire department
recommendations, it failed to address fire department
orders. It also assumes that the Penn Valley Fire District will remain in perpetuity and that fire jurisdiction
will not transfer to another county, district or state
agency, and further assumes that no other fire agency
with jurisdiction will provide recommendations or impose fire prevention orders.

App. 44
Seventh, the deed was vague as to the terms “removed” or “removal”. In particular, are downed trees
(i.e., from wind, lightning, disease, fire, etc.) removed
for the purposes of imposing an obligation to replace
them?
Eighth, the deed was vague as to the term “specifically screen” the proposed structures. Does this
mean all trees in the restricted area, or just those
that directly screen the structures? Does this include
downslope trees that do not screen the structure unless upslope trees are removed?
Accordingly, the Court found that the deed restriction terms were so vague as to be both unconstitutional and unenforceable.
E. The Court Concluded:
“The Court is mindful of the challenges inherent
in implementing an ordinance for the first time and the
Court’s obligation not to simply substitute its judgment for that of the County. No determination is made
that the ridgeline in question is a VIR, nor does the
Court propose any specific measures should that determination ultimately be made. Unfortunately, the record is permeated with distrust. Each side views the
other as acting in bad faith, to the point that Petitioners believe further negotiation would be futile, even
though, in the Court’s view (and apparently in that of
the BOS) there is plenty of room for resolution short of
further contested hearings and writ proceedings. The
parties may wish to consider whether a recorded deed

App. 45
restriction is really necessary. But whatever the future
holds for these parties, the County must act in accordance with its ordinance and due process. Nothing less
is required.”
Based upon the foregoing, the petition for writ of
mandate was granted. The matter was remanded to
the County for further proceedings consistent with this
ruling. In the event County did not complete reprocessing of Petitioner’s permit within 90 days from the
date of filing the ruling, or in the event County earlier
accepted the ruling as final, Conditions #2 and #3 of
the Management Plan were to be ordered stricken as
conditions of Petitioners’ permit approval. The term
“complete reprocessing of Petitioners’ permit” meant a
final determination of the Planning Department followed by the expiration of appeal time, or if further Appeal was taken to the BOS, the entry of a further BOS
Resolution determining the issues. The Court reserved
jurisdiction with respect to further proceedings involving any future BOS determination on the issues
raised.9
PHASE TWO: WRIT DETERMINATION
FOLLOWING COMPLETION OF REMAND
The Court’s Initial Ruling on Phase Two (12/30/14):
After remand, County revised the approval conditions and, after further appeal, the BOS finalized the
9

The Court made no determination at this stage of the proceedings as to whether the VIR ordinance was applicable to a
building permit application.

App. 46
conditions, including the proposed revised Conditions
#2 and #3, including a revised deed restriction. The
matter returned to Court on Petitioners’ Supplemental
Complaint. The Court initially concluded on December
31, 2014 that County could make VIR findings in the
instant proceeding and that County had made adequate findings in that regard.10 That finding, vacated
in the 8/25/14 Pretrial Rulings and Order, is set forth
in Appendix A (Foot notations added by Court for purposes of this Statement of Decision).
The Court also found that County had largely corrected the deficiencies found in Phase One.11 Specifically, the Court found that the revised Management
Plan, as amended by Board Resolution 14-397, was
supported by the evidence and the VIR ordinance. The
totality of the evidence from the prior permit proceedings and the remanded permit proceedings, including
the evidence relied upon by the Board in its findings
and the sightline evidence previously reviewed by the
Court, provide substantial evidentiary support for the
currently approved restricted area. In particular, the
Court found:
a. The area of screening protection is downsized
such that the issue of over-breadth found in the prior
writ hearing has been resolved. The Court will not
10

This finding was nullified in the Court’s 8/25/15 Pretrial
Orders and Ruling.
11
The findings on corrected deficiencies survive the rather
extensive change in analysis and modification discussed infra,
but are of no import given that the VTR ordinance itself is inapplicable.

App. 47
second guess the Board findings on this issue. Further,
because of the downsizing, the term “screening” is now
sufficiently certain to be used in its ordinary sense,
that is, to obscure sight, within the ridgeline, of the
proposed garage.
b. The proposed deed restriction, based on the reduced area, now shows a sufficient nexus between the
proposed project and the condition, such that the prior
constitutional infirmity has been removed. The deed
restriction no longer remains in perpetuity, but only so
long as the project exists.
c. The provisions for thinning, removal, and for
down and dead trees, are now sufficiently certain, setting forth an adequate process for determination of issues as they arise and considering relevant criteria
such as biological, forestry and arboricultural issues.
Tying the ratio of replanted trees to that in the general
area of the removed tree is sufficiently certain.
d. The provision permitting satisfaction of screening by the owner agreeing to utilize trees off site (i.e.,
adjoining property) is unnecessary, but it is an accommodation that the Plaintiffs are permitted to utilize.
No burden is placed on Plaintiffs as a result.
e. The provisions for review of an adverse
County action are sufficient.
f. The provisions adequately address fire department orders and recommendations, regardless of
changes in districts and jurisdictions.

App. 48
g. The deed preparation provisions are ministerial in nature. The essential terms and conditions of
the deed are set forth in the Management Plan.
Finally, the Court found that the restrictive deed
was by statutory definition a conservation easement
which could not be exacted in the permit process. Civil
Code §815.3(b)12. The Court’s reasoning in this regard
is set forth in Appendix B.
County’s Motion to Reconsider:
County moved to reconsider. Following full briefing, the Court reconsidered its 12/30/14 Ruling and
modified and restated it without change in result, finding that Civil Code §815.1 negated a legitimate governmental interest where there was both a lack of
authority in the VIR ordinance and a statutory prohibition in §815.1.
Court’s Determination of Pretrial Issues and Its
8/25/15 Rulings and Order:
In connection with the then pending trial on inverse condemnation issues, the Court invited pretrial
briefing and conducted extensive pretrial hearings in
an effort to clarify trial issues. In the course of resolving constantly evolving arguments from both sides,
and in order to avoid inconsistency in the later Phase
Three Inverse Condemnation, it became clear, and the
12

In its Pretrial Rulings and Order filed 8/25/2015, the Court
determined this conclusion to be unnecessary.

App. 49
Court so held, that County was without jurisdiction to
apply its VIR ordinance to Petitioners’ Building Permit
Application. Because the Pretrial Rulings and Order
detail the shifting positions of the parties and the
Court’s response, and because of its impact on the overall decision making in this action, a copy of the Pretrial
Rulings and Order is set forth in full in Appendix C,
and incorporated by reference as though fully set forth.
Conclusion:
Writ II was granted deleting permit Conditions #2
and #3 in their entirety, ordering County to issue the
Erickson Building Permit. The Court further found
that the permit applications did not expire because
their issuance was tolled by County’s improper application of the VIR ordinance to the Erickson permit.
County was estopped to argue otherwise. Counsel for
Erickson was to prepare the peremptory writ of mandate at such time as judgment was entered.
PHASE THREE: THE INVERSE
CONDEMNATION TRIAL
The Inverse Condemnation phase proceeded to
trial on January 5, 6, 7, 12 & 13, 2016 before the undersigned judge, sitting without a jury. The Court received documentary and oral evidence, considered the
pleadings and the arguments of counsel following full
briefing and issued its Tentative Decision. Following
Proposals for content by both parties, the preparation
of a Proposed Statement of Decision by Plaintiffs and

App. 50
Objections by County, the Court elected to issue its own
Statement of Decision, without further hearing, as
stated herein.
As to the Inverse Condemnation phase, the Court
finds by evidence more likely than not that:
1.

Plaintiffs applied for a building permit on March
16, 2011.

2.

As of the date of the Plaintiffs’ application for
building permit, County had made no prior finding
of a visually important ridgeline (VIR) with respect to Plaintiff ’s property, or any property.

3.

As of the date of the Plaintiffs’ application for
building permit, County had failed to properly
identify the ridge as a resource subject to protection by the VIR ordinance. While there was some
evidence that County considered the visibility of
the ridgeline during the cell tower proceedings
prior to the Plaintiffs’ building permit application,
there was no evidence at that time of any consideration of other VIR criteria contained in the
County’s VIR ordinance i.e., no finding that the
ridgeline met the definition of a VIR per Land Use
and Development Code § L-II 4.3.16. B. 1. (“Visibly
prominent ridgelines, and large-scale viewsheds
considered to be of high natural scenic quality and
are highly visible from public roadways, parks and
other public places.”)

4.

At best, County had examined the ridgeline under
its cell tower ordinance (§ L-II 3.8.E) in connection
with its approval of the Verizon cell tower on a
neighboring parcel, but the VIR ordinance did not

App. 51
apply to that proceeding, a conclusion later affirmed by the Third District Court of Appeal.
5.

If it could be concluded that County had identified
the ridgeline as a protectable resource, County did
not do so in a way that would identify its extent,
or which parcel or parcels were subject to that determination.

6.

Despite its own ordinance and lack of a prior determination or identification, County wrongly determined that the Plaintiffs’ building permit
application was subject to the application of its
VIR ordinance.

7.

Prior to Plaintiffs’ application for building permit,
County had never applied or utilized the VIR ordinance. It had never made any finding in any public
hearing or permit process that the ridge in question was a resource protected under the VIR ordinance. It had never required a management plan
for any project, development or permit on the basis
of the VIR ordinance.

8.

County practice and procedure has been to apply
all resource ordinances to building permits in the
plan review process, but it had never had occasion
to apply the VIR ordinance prior to considering
Plaintiffs permit application.

9.

County failed to distinguish between those resource standards applicable under Land Use and
Development Code § L-II 4.3.2, and those not applicable.

10. County’s position was and remains that the Planning Department in its plan review of building
permits should and would consider the application

App. 52
of all resource standards and it will not issue the
Erickson permit without Erickson’s compliance
with Conditions #2 and #3, which conditions exist
only as a result of the application of the VIR ordinance. County does not acknowledge that the language of Land Use and Development Code § L-II
4.3.2 excludes the VIR ordinance from application
to the Erickson building permit.
11. In applying the VIR ordinance, County interpreted
the term “ridgeline” to mean the top of the tree
canopy, not the ground elevation. Plaintiffs proposed project did not extend above the existing
natural tree canopy.
12. As a result of wrongly applying its VIR ordinance
in processing Plaintiffs’ building permit application, and as conditions of building permit approval, County imposed Conditions #2 and #3,
relating to the maintenance of vegetative cover for
the proposed construction. Plaintiffs objected to
the conditions imposed and subsequently appealed the conditions to the Board of Supervisors
(BOS), which denied the appeal. Plaintiffs timely
filed this action.
13. During the planning review and appeal process,
and in response to County’s request for a Management Plan, Plaintiffs submitted site plans prepared
by their engineer, Charles Durrett, and line-ofs[ight] surveys, photographs and analyses prepared by their line-of-sight expert, Martin Wood.
Planners Todd Herman and Brian Foss made
field inspections and took additional photographs.
Attorney Allan Haley corresponded with the
Planning Department concerning the issues. This

App. 53
process eventually resulted in County imposing
Conditions #2 and #3 and identifying a polygonal
shaped area to which these conditions were applied. The conditions and affected area were ultimately approved by the Board of Supervisors. As
the Court previously found in connection with the
writ proceedings, in light of the field inspections
by Herman and Foss, the Court cannot say that
the BOS findings concerning the need for Conditions #2 and #3 were unsupported. Accordingly,
the Court defers to the BOS on its findings in that
regard. These findings facially support the BOS
finding that the VIR was applicable due to the project impacts. (However. the finding of applicability
is erroneous for other reasons more specifically
discussed in this decision.)
14. Neither side produced evidence of education,
training, guidance or written policy pertaining to
the adoption or implementation of the VIR ordinance, its distinction from other resource provisions in the Land Use and Development Code, or
appropriate elements of a management plan.
However, the deposition testimony of Todd Herman showed no such materials existed.
15. County’s intra-office communications at times
were disrespectful to the Plaintiffs.13 County was
at times unclear and at times wrong as to whether
County had made a prior finding that the ridgeline
was a visually important ridgeline as defined in its
ordinance. Plaintiffs lawfully removed trees on
13

While the Court permitted a certain amount of leeway in
Plaintiffs’ presentation of its case, County correctly notes that
this is not a trial for emotional distress.

App. 54
their own property during the pendency of proceedings to approve a cell tower on adjoining property. This caused County additional work in
reevaluating the cell tower application, which it
viewed as a favorable project, and consequently,
County was not pleased with the tree removal.
Notwithstanding, the totality of the evidence concerning County’s actions in processing the Plaintiffs’ application falls short of showing animus,
prejudice, ill will, an improper agenda or motive
toward Plaintiffs or an intent to delay or derail
Plaintiffs’ project.
16. Because the Planning Department had no experience in applying this ordinance and it was culturally conditioned to consider all resources as
applicable in its plan checking process, more likely
than not, County’s actions in applying the VIR ordinance stemmed from its own negligence in assuming proper application of the ordinance to
Plaintiffs’ building permit review. Plaintiffs’ initial
cooperation with County in arriving at a Management Plan reinforced County’s mistaken reliance
on the VIR ordinance. Once locked into a course of
action, the parties focused on the necessity and
scope of the conditions and spent little time on the
issue of applicability.
17. Plaintiffs failed to show that the alleged conditions were a County response to Plaintiffs’ opposition to the Verizon cell tower proceedings, that
they were intended to screen the cell tower, or that
they were retaliatory to Plaintiffs’ lawful removal
of trees on their own property.

App. 55
18. Delay in the issuance of Plaintiffs’ building permit
has been the combined result of the following:
a.

Ordinary delays in the permit process, including ordinary litigation,

b.

Delays caused by County in erroneously applying its VIR ordinance,

c.

Delays by both sides caused by evolving and
changing arguments during the course of the
permit processing, hearing process and this
litigation.

19. County failed to show that Plaintiffs no longer
wished to build.
Having made the foregoing findings of fact, the
Court re-adopts and incorporates by reference its May
19, 2014 ruling on the initial writ (Writ #1), its December 31, 2015 ruling on the subsequent writ (Writ #2),
and its Pretrial Rulings and Order filed August 25,
2015 (including any modifications and/or clarifications
of Writs #1 and #2, as set forth herein). To the extent
this Statement of Decision is inconsistent with any
prior ruling, this Statement of Decision is intended to
prevail.
The Court now concludes that County has not
made a permanent compensable taking because the
Court has eliminated the offending condition of permit
approval during the permit process, including its review by writ. Further, County has not made a temporary compensable taking for the reasons hereinafter
set forth.

App. 56
1.

Even though County may not apply the VIR
ordinance in this instance, in the abstract,
County has a legitimate public interest in protecting its natural resources, including prominent ridgelines, for the benefit of the public.

2.

However, contrary to County’s argument,14
as written in the Land Use and Development Code, the VIR ordinance (and hence its

14

County argued in its Post-Trial Brief on Liability Issues,
commencing at p.7, that because the Land Use and Development
Code identifies 15 resources, they are all at play (i.e., “applicable”)
when the Planning Department considers site plan approval for a
building permit, relying on L-II 5.4.B. This is contrary to L-II
4.3.2, discussed below. § L-II 4.3.2 is entitled “Applicability” and
is clear as to which resources apply to building permits, the VIR
ordinance not being included as applicable to such permits. Since
this latter provision is more specific than L-II 5.4.B., this Court is
of the view that the more specific provision applies.
County further argues that the VIR provisions are made applicable by the general purposes provisions of the zoning code
which “provide for the conservation of natural amenities, such as
open space, wetlands, native vegetation, and wildlife (§ L-II 1. 1.)
and argues that the applicability provision should yield to the
general provisions in the event of conflict. County ignores the fact
that there is no conflict. County legislators chose to make various
resources applicable to building permits, among them floodplains,
significant mineral areas, steep slopes and erosion areas, watercourses, wetlands and riparian areas, and wildland fire hazards.
They could have included visually important ridgelines, but they
did not. County further likens the Planning Department staff
identification of a visually important ridgeline in the building permit process to that of an avalanche hazard study, or a cultural
resource study, or a consideration of floodplains or wetland areas,
but ignore the fact that County cites the very provisions of its code
which permit such an examination. In short, County has legislated its own method for consideration and implementation of its
VIR ordinance, but County simply has argued it may do otherwise.

App. 57
resource standards) does not apply to all permits, and is not included in the ministerial act
of issuing building permits, unless compliance
is otherwise required as a result of a prior
determination that an affected ridgeline resource is in need of protection, that is, unless
the resource becomes “applicable” by virtue of
some prior determination. § L-II 4.3 .16 (VIR
ordinance), § L-II 4.3.2 (VIR not included as
applicable to building permit), § L-II 5.4.B
(“The Planning Director shall issue the zoning
compliance after determining that the site
plan complies with all applicable provisions
and standards of this Chapter, accompanied
by written findings supporting the determination of zoning compliance.” Emphasis added.)
3.

Per the Land Use and Development Code, application of the VIR ordinance is clear. It is
applicable to all Development Permits, Use
Permits, and subdivisions (§ L-II 4.3.2), indicating it may be found to apply in broad or
large scale land planning decisions other than
building permits. Such a finding would be one
avenue for County to make the predicate finding so as to make VIR standards “applicable”
to subsequent applications for building permits.15

4.

County made no VIR ordinance findings in
the cell tower proceedings. The VIR ordinance

15

For example, if the VIR was found applicable to a subdivision atop a ridgeline, then, the predicate finding for later implementation is made-for a subsequent application to build within
that subdivision, County could require a management plan. [ ]

App. 58
was wholly inapplicable to the cell tower proceedings, which were governed by a different
and separate provision of the Land Use and
Development Code, § L-II 3.8., relating to
communications towers. County’s reliance
on anything in the cell tower proceedings is
misplaced. Such proceedings give no notice of
any County action concerning determinations
made as to the ridgeline in question here.
5.

In light of the terms of its own ordinance, the
lack of applicability to the building permit at
issue in this matter, and the lack of a prior
VIR determination or identification, County’s
determination in this case that the Plaintiffs’
building permit application was subject to the
application of its VIR ordinance was erroneous, arbitrary16 and unjustified because:
i.

16

County had not previously made specific
findings that the ridgeline was a visually
important ridgeline, or that it was considered to be of high natural scenic quality;
and,

County’s contention in its objections to Plaintiffs’ Proposed
Statement of Decision, that this finding is inconsistent with the
Court’s findings that the BOS determinations were supported by
the facts before them, misconstrues the Court’s Tentative Decision. The BOS findings are accorded zero weight because the VIR
ordinance does not apply. To the extent the BOS found that the
VIR ordinance does apply, it never considered the issue here, that
is, that the VIR ordinance does not apply to building permit applications. Thus, while the BOS might find that the ridgeline is
scenic and prominent and that the management plan is fine and
dandy, it cannot apply this resource in contravention of County
ordinances or legally make any finding to that effect.

App. 59
ii.

County had not, consistent with any degree of due process to plaintiffs and other
property owners affected thereby, made
any prior identification of the ridgeline
that would have provided notice to plaintiffs or the public that the ridgeline was a
resource to be protected and/or reviewed
in the building permit process during
Planning Department Site Plan Review.

20. Plaintiffs established that the required conditions #2 and #3 (in fact, all conditions imposed
as a result of the VIR ordinance) operate as an
exaction because they are ad hoc detailed conditions applied one time to Plaintiffs’ property
as a building permit condition, are not authorized by Nevada County ordinances and could
not otherwise be required of a homeowner, absent just compensation. They are not a proper
exercise of police power.17
21. County’s action in imposing Conditions #2
and #3 were to protect the public view of
the subject ridgeline. They did not otherwise
17

County cites Echevarrieta v. City of Rancho Palos Verdes
(2001) 86 Cal.App.4th 472 for the proposition that it has inherent
police power to regulate aesthetics. The case is readily distinguishable. In that case, relying on a local ordinance, a permit was
issued requiring trimming of vegetation on a neighbor’s property.
The permit in that case was issued pursuant to local ordinance.
The case here is that the action was taken in contravention to
local ordinance. Further, Echevarrieta can in no way be interpreted as a blanket authorization for the use of police power
without some underlying form of legislative authorization. On a
separate point, Echevarrieta was decided as a regulatory case,
subject to Lucas, supra, and physical invasion analysis, not
Nollan/Dolan.

App. 60
facilitate the improvement of Plaintiffs’ property. Hence, the exactions were for a public
purpose.
22. The exaction of Conditions #2 and #3 (which
in this Court’s view constitute a temporary or
permanent conservation easement or deed restriction) as a condition of issuance of Plaintiffs’ building permit, without compensation,
would be a taking if it caused damage to
Plaintiffs. The taking is the County’s appropriation of a valuable property right. Selby
Realty Co. v. City of San Buenaventura (1973)
10 Cal.3d 110; Hilltop Properties v. State of
California (1965) 233 Cal.App.2d 349. The fact
that the restrictions could be considered temporary in nature, due to their expiration upon
removal of the plaintiffs structures, would not
in any way make them less of a taking. The
taking is no less a taking even though the interest taken is not a fee interest, a traditional
type easement pemlitting physical invasion
(i.e., road, pipeline, public access, etc.), a fee,
or in some other recognized form. The taking
is no less a taking even though the interest
might otherwise be lawfully required in the
proper and lawful exercise of a police or regulatory power by County.
6.

County has shown, in general and in the
abstract, a nexus between its legitimate
state interest in protecting natural resources such as the instant ridgeline.
However, County failed to show that such
nexus is essential as to the plaintiffs’ specific property because it had no authority

App. 61
to impose any such conditions under the
provisions of its ordinances. For the same
reasons, County cannot show a rough proportionality between the conditions and
the state interest which is supposed to be
mitigated.

18

7.

Whether a compensable taking occurred
depends on whether Landgate, Inc. v. California Coastal Com. (1998) 17 Cal.4th
1006 (Landgate) applies, and, if so, what
effect does it have on the outcome? The
Court concludes that when the issue of a
compensable taking is raised in the context of a permit application, Landgate has
equal viability to Nollan/Dolan18 exaction
cases as it does to regulatory cases – that
is, the Court must determine whether a
taking has occurred as a result of something more than mere delay in the permit
process. See, i.e., Galland v. City of Clovis
(2001) 24 Cal.4th 1003, in which Landgate was discussed in a due process context.

8.

The preponderance of the evidence does
not support a finding of intentional delay,
animus, prejudice, ill will, or an improper
agenda or motive toward Plaintiffs. Mere

Plaintiffs have stipulated that their cause of action is not
premised upon Loretto v. Teleprompter Manhattan CATV Corp.,
458 U.S. 419, 73 L. Ed. 2d 868, 102 S. Ct. 3164 (1982), Lucas v.
South Carolina Coastal Council, 505 U.S. 1003, 1014, 120 L. Ed. 2d
798, 112 S. Ct. 2886 (1992) or Penn Central Transp. Co. v. New
York City, 438 U.S. 104. 57 L. Ed. 2d 631, 98 S. Ct. 2646 ( 1978).
See Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 538 (U.S. 2005)

App. 62
delay is not shown by ordinary litigation
attendant to the permit process.
9.

Legal error, including an erroneous exercise of jurisdiction by the Planning Department, does not show something more
than mere delay. Buckley v. California
Coastal Com. (1998) 68 Cal.App.4th 178.

10. To be compensable, Plaintiffs must show
that County’s position was so unreasonable, from a legal standpoint, so as to be
arbitrary, capricious and not in furtherance of any legitimate governmental objective (thus inferring other illegitimate
motives, such as delay). Landgate, supra
at 1024.
11. There is no compensable taking in this
case because the delay in question was ordinary to the permit process, including
litigation, and supported by the following
chronology and facts:
03/16/2011: Plaintiffs submit their site
and architectural plans for a
building permit.
07/12/2012: County Planning conditionally approves permit, subject
to application of County’s VIR
ordinance, including management plan.
07/19/2012: Plaintiffs file their appeal of
Conditions #2 and #3.

App. 63
11/13/2012: Plaintiffs’ appeal of permit
conditions is denied by the
County’s Board of Supervisors (hereinafter, “BOS”).
03/28/2013: Plaintiffs file their initial
Complaint for Inverse Condemnation and for Writ of
Mandamus.
06/06/2013: Plaintiffs file their First
Amended Complaint Inverse
Condemnation and for Writ
of Mandamus.
05/09/2014: Hearing on Writ.
05/19/2014: Court issues its written ruling on Writ (hereafter “Writ
1”). Matter remanded to BOS
for further proceedings.
07/15/2014: County issues further approval letter following Court’s
remand.
07/14/2014: Plaintiffs file further appeal
of revised conditions #2 and
#3.
08/12/2014: Plaintiffs’ appeal of conditions #2 and #3 is denied by
BOS.
09/29/2014: Plaintiffs file Supplemental
Complaint following completion of the further BOS
proceedings on remand.

App. 64
12/19/2014: Court conducts further trial
on the writ proceedings following completion of the remand to the BOS.
12/31/2014: Court issues ruling granting
Writ in part (hereafter “Writ
2”).
01/20/2015: County files alternate motions to vacate ruling, reconsider ruling, or for new trial.
03/06/2015: Court denies County’s motions, but reconsiders and
modifies its ruling on the
Court’s own motion. No
change in result. Among
other findings, Court concludes that County has not
provided authority for its
imposition of a deed restriction, either by the VIR
ordinance or other authority.
07/10/2015: Parties file their respective
Pretrial Statements. For the
first time, County provides
authority (Land Use and Development Code § L-II 4.3.3)
for its imposition of a deed
restriction.
07/24/2015: Pretrial Conference conducted with respect to the
pending trial of the inverse
condemnation claim. Court

App. 65
addresses issues raised by
parties and Court concerning prior rulings and pending inverse condemnation
trial. Court orders briefing.
Simultaneous briefing schedule set. Matter continued to
08/25/2015.
08/07/2015: Parties file opening briefs.
For the first time, Plaintiffs
specifically argue inapplicability of VIR ordinance per
§ L-II 4.3.2.
08/11/2015: Upon review of opening
briefs, Court identifies further issue concerning applicability of VIR ordinance
and orders briefing on that
issue.
08/25/2015: Court issued its Pretrial Rulings and Order finding that
the VIR ordinance should
not have been considered by
the Planning Department in
its building permit approval.
01/05-13/2016: Matter proceeds to trial
on phase one of inverse condemnation trial.
The Court also notes the following factors as ordinary to the permit and litigation process:

App. 66
a.

County required a management plan early in
the permit process. Thereafter, the parties negotiated at length the specific terms of a management plan. On August 26, 2011, Attorney
Haley’s letter to County raised the issue of a
lack of predicate findings to support County’s
requested conditions. The Plaintiffs’ permit
was conditionally approved sixteen months
following initial permit application.

b.

Permit appeals and litigation were timely
filed throughout.

c.

The issues presented were factually and legally complex. For example, prior to August
2015, Plaintiffs’ pleadings and arguments focused on 1) the vagueness and overbreadth of
the conditions imposed, 2) that the conditions
were imposed for the improper, and perhaps
retaliatory, purpose of screening the cell tower
(which the Plaintiffs opposed) on the adjoining property, and 3) that the conditions were
not supported by a predicate finding that the
ridgeline was visually important. From and
after August 2015, Plaintiffs more specifically
additionally argued the non-application of the
ordinance. On the other hand, County posited, inter alia, that Plaintiffs had failed to
exhaust administrative remedies, defenses of
waiver, estoppel, ripeness, as well as other
procedural and substantive arguments. County
first contended that it had made prior findings
in the cell tower case, then in this case, then
that no specific finding need be made at all—
just an identification of a resource.

App. 67
d.

Other normal delays occurred as a result of
calendaring to accommodate multiple schedules of attorneys and the Court.

e.

The Court did not factually find intentional
delay, animus, prejudice, ill will, or an improper agenda or motive toward Plaintiffs.

f.

While the Court would expect County to know
its own ordinances as a matter of course, and
the Court finds legal error in County’s application of its ordinances, there is little factual
basis shown for finding the County’s position
in this litigation to be unreasonable or for the
purpose of delay, as defined in Landgate.
Plaintiffs appeared to rely on County’s mistaken application and, as a result, did not argue the inapplicability of the ordinance to
building permits until nearly two and a half
years into the litigation process, which was
four years from the date Attorney Haley first
raised the related predicate finding issue.
This required the Court in its August 25 Pretrial Rulings and Order to examine County’s
argument that Plaintiffs failed to exhaust
administrative remedies, i.e., whether nonapplication due to no predicate finding and
non-application due to the wording of the ordinances are sufficiently similar, or whether a
constitutional argument otherwise excused
exhaustion of remedies. County’s arguments
are neither surprising nor unexpected, and
are designed, at a minimum, to preserve such
issues for further review. Even though the
Court finds County to be wrong in imposing
the conditions in the first instance, it is not

App. 68
unreasonable for County to preserve its procedural and substantive arguments pending
this action becoming final. For example,
should County prevail on an appeal of the exhaustion of administrative remedies issue,
the result would preclude Plaintiffs from pursuing the impropriety of the conditions imposed.
g.

The judgment on Plaintiffs writ petition cannot be entered until conclusion of the balance
of their action. Morehart v. County of Santa
Barbara (1994) 7 Cal.4th 725, 743. Ordinary
delay in completing the proceedings further
results from combining Plaintiffs’ Writ Petition with the inverse condemnation complaint.

On remaining issues, the Court also concludes
that:
1.

The issues are ripe for decision for the reasons set forth in Appendix C concerning the
denial of County’s Code of Civil Procedure
§ 1260.040 motion;

2.

The issues are not moot;

3.

Erickson did not waive the right to object by
negotiating in the absence of an agreement
and their acceptance of the benefits of that
agreement;

4.

On exhaustion of administrative remedies,
see the discussion of that issue in Phase One,
above, and the discussion of the same issue in
the 8/25/15 Pretrial Rulings and Order;

App. 69
5.

As to County’s argument for Judicial Estoppel, the Court finds Plaintiffs/Petitioners are
not judicially estopped. In the cell tower litigation, Erickson made the argument that the
County was applying different standards in
protecting the ridgetop. This does not mean
that Erickson took a position that they had accepted the application of the VIR resource
standards as to their property, and they certainly never accepted conditions #2 and #3 in
any action. If they had done so, they would not
be here continuing to litigate the issue. Erickson’s issue in the cell tower litigation was that
the height of the tower made it an eyesore and
the same definition of ridgeline should apply
to both Verizon and the Ericksons. Further,
the Erickson application was not at issue in
the cell tower litigation. They were not litigating their building permit versus the cell tower.
The only common factual element between
the two actions was that both proposed structures were planned on a ridgetop. From there,
the criteria for approval (and applicability)
were entirely different. Judicial estoppel
requires totally inconsistent positions. MW
Erectors, Inc. v. Niederhauser Ornamental &
Metal Works Co.. Inc. (2005) 36 Cal. 4th 412,
422.

The foregoing decision precludes further trial on
the issue of damages, including damages resulting
from increases in design or building costs. Plaintiffs
are deemed the prevailing party because the primary
objective of the litigation was removal of the offending
conditions, which objective Plaintiffs achieved in Writs

App. 70
#1 and #2. As such, they shall be entitled to recovery of
their costs.
DATED: August 17, 2016 /s/ SEAN P. DOWL1NG
SEAN P. DOWLING
Judge of the
Superior Court, Assigned

APPENDIX “A”
The Visually Important Ridgeline Finding
Petitioners argue that the County failed to make
required and timely findings that the ridgeline on
which Petitioners propose to build their home is a Visually Important Ridgeline. County has now made a
VIR (Visually Important Ridgeline) finding in Resolution 14-397. This determination is supported by findings based on substantial evidence that the ridgeline
is both prominent and of high scenic value, as contained in the Board Resolution. County considered the
presence of NID water tanks and the camouflaged
mono-pine cell tower in its determination that the
ridgeline remains a VIR.
The finding of a VIR [ ] can be made in connection
with the Plaintiffs’ permit application and the reprocessing of that application following the original writ
hearing.19 In particular the Court finds City of Orange
19

This finding was later found to be fundamentally wrong
and vacated because the VIR ordinance is not applicable to Building Permit Applications.

App. 71
v. Valenti (1974) 37 Cal.App.3d 240, 243-244, Sunset
View Cemetery Assn v. Kraintz (1961) 196 Cal.App.2d
115, 122-123, and Munns v. Stenman (1957) 152
Cal.App.2d 543, 552-554 inapposite. Those cases involve the enactment of ordinances effecting a retroactive blockage of a proposed development or permit.
Here, the VIR ordinance existed well before the permit
application and provided notice to those planning
hilltop construction that their project may be subject
to the terms of the ordinance.
To hold otherwise requires the County to maintain a public inventory of all visually important ridges
prior to any permit application in order to avoid retroactivity, and this is also the Petitioners’ argument.20
Clearly the ordinance provides to the contrary – “This
determination may be based on a County-wide or areawide inventory of visibly prominent ridgelines and
large-scale viewsheds, or, in the absence of an inventory, upon a determination that the proposed project
may be likely to impact a visually important ridge line
or viewshed.” Emphasis added. The record shows ample evidence to support the County’s determination
that the project would likely impact a VIR. While
much of the Petitioners’ argument is an “as applied”
due process challenge to the ordinance, this particular
inventory argument really addresses a facial unconstitutional issue which is, “Can the VIR statute ever be
applied in any individual application process where

20

This finding is correct only if the VIR ordinance is applicable, which it is not.

App. 72
the County does not maintain an inventory (or prior
determination) of VIRs?”
If addressed as a facial challenge, Petitioners must
show there is no way in which the County can proceed
without violating due process. The argument is inviting. In maintaining an inventory, a public hearing
would be held for each affected property owner. Resolved would be the issue of whether the protected area
is the peak of the most prominent ridge, or, as noted by
Supervisor Anderson, the entire length of the line of
sight within which this particular parcel exists. All
property owners impacted by the proceeding would be
given notice and an opportunity to be heard. Thereafter, the prospect of inconsistent treatment of ridgeline
properties would be avoided.
However, the Court notes it should normally defer
to the County in applying its own ordinances.21 “A
claim that a regulation is facially invalid is only tenable if the terms of the regulation will not pemlit those
who administer it to avoid an unconstitutional application to the complaining parties. [Citations.] This restraint stems from the prudent judicial policy of
avoiding officious checking of the political branches of
the government. (See Tribe, American Constitutional
Law (1988) § 3-10; [citations].)” San Mateo County
Coastal Landowners’ Assn. v. County of San Mateo
(1995) 38 Cal.App.4th 523, 547. Despite the possibility
of inconsistent future VIR determinations, Petitioners
21

However. County cannot apply its own ordinances in direct
contradiction to their own ordinance terms.

App. 73
have not demonstrated that the County will apply the
ordinance inconsistently. Certainly the County is able
to make consistent findings with each application.
Accordingly, the Court finds that the VIR ordinance may be applied concurrently with the permit application, rather than as precedent thereto.22
Because Petitioners did not show a facial or as applied unconstitutional VIR determination, the Management Plan is properly imposed as a condition
pursuant to the VIR ordinance.

APPENDIX “B”
However, upon the Courts’ further review and research, this Court is of the view that the deed requirement is an impermissible conservation deed extracted
as a condition for the Petitioners’ permit. Civil Code
§815.1 defines a conservation easement as “any limitation in a deed, will, or other instrument in the form of
an easement restriction, covenant or condition, which
is or has been executed by or on behalf of the owner of
the land subject to such easement and is binding upon
successive owners of such land, and the purpose of
which is to retain land predominantly in its natural,
scenic, historical, agricultural, forested, or open-space
condition.” Clearly, the restrictive deed set forth in the
Management Plan is a limitation in the form of an
22

As noted above. this conclusion was later found to be fundamentally wrong and vacated because the VIR ordinance is not
applicable to Building Permit Applications.

App. 74
easement or restriction, covenant or condition, the purpose of which is to retain the polygonal shaped portion
of Petitioners’ land predominantly in its natural, scenic, historical, forested condition. The deed restriction
could not be a better match for the definition of a conservation easement.
§815.3 permits a county to hold a conservation
easement “if the conservation easement is voluntarily
conveyed.” However, “no local governmental entity may
condition the issuance of an entitlement for use on the
applicant’s granting of a conservation easement pursuant to this chapter.”
Only two cases have discussed this statute at any
length, being San Mateo County Coastal Landowners’
Assn. v. County of San Mateo [San Mateo] (1995),
supra, and Building Industry Assn. of Central California v. County of Stanislaus [Stanislaus] (2010) 190
Cal.App.4th 582.
San Mateo clearly draws the distinction between
a Civil Code §815 conservation easement and one imposed by a different provision of law such as the Subdivision Map Act. The issue in Stanislaus was whether
a local ordinance requiring a conservation easement
violated §815 if the easement was not required to be
given by the applicant. In that case the appellate court
specifically held that the easement in question was a
§815 easement, in apparent conflict with the San
Mateo case.
This Court is of the view that the proposed deed is
in fact a conservation easement, clearly fitting the

App. 75
definition of such under §815. The question of first impression is whether the deed is required as a condition
of entitlement under §815.3, or under other law (as was
found in San Mateo). While the VIR ordinance permits
the imposition of a management plan, unless implied
in that authority, it has no provision whatsoever for
any kind of deed or the imposition of a management
plan in the form of a deed. County can certainly argue
that a deed is a reasonable protective element of a
management plan. Since conservation deeds are specifically governed by §815, any implicit assumption
they are permitted in the VIR ordinance is negated.
As argued by Petitioners, deeds have significant
impacts on title, property values, and future uses.
Management plans, while not defined in the VIR ordinance, are distinct from deeds. A management
plan, in the context of the VIR ordinance, is a proposed
course of action intended to administer how the VIR
protection is to be maintained. However, a deed is a
conveyance separate and apart from simple land management. In both San Mateo and Stanislaus, supra, the
underlying law specifically provided for the deeds in
question.

App. 76
APPENDIX “C”
IN THE SUPERIOR COURT
OF THE STATE OF CALIFORNIA
IN AND FOR THE COUNTY OF NEVADA
Erickson et al.,
Plaintiffs,

CASE NO.: CU13-079389
Pretrial Rulings and Order

vs.
County of Nevada,
Defendant,
In this Pretrial Order, the Court clarifies and reconsiders portions of its prior Rulings, enters new findings and rulings and sets forth the remaining issues
for trial in the inverse condemnation portion of the action. Herein, the Court concludes as follows:
1. The “taking” finding in Writ 1 is not controlling in the balance of this action.
2. The VIR ordinance does not apply to building
permits.
3. Erickson has properly exhausted administrative remedies, and, alternatively, that such exhaustion
is not required under the specific facts of this case.
4. Writ 2 is reconsidered. Upon reconsideration,
Writ 2 is granted. Conditions #2 and #3 are ordered
deleted. County shall issue Erickson’s building permit
without such conditions.

App. 77
5. County is estopped to argue that the Erickson
permit has expired.
6. Because the matter is not final the Court retains jurisdiction to make the foregoing modifications
and orders.
7. County’s motion under Code of Civil Procedure § 1260.040 is applicable to this proceeding, but it
is denied.
8.

The issues remaining are:

a. Whether Erickson can establish an actual taking, either temporary or permanent.
b.

If so, what is the value of that taken.

c. If Erickson prevails, the amount of Erickson’s
costs, as defined and provided for in Code of Civil
Procedure § 1036.
Factual Background
Plaintiffs and Petitioners Juliet Erickson and Peter Lockyer (hereafter collectively referred to as “Erickson) own property in Nevada County located atop
a ridge overlooking the Lake Wildwood subdivision.
They desired to construct a garage and office on their
property and on or about March 16, 2011, they submitted their site and architectural plans for a building
permit.
Nevada County (hereafter referred to simply as
“County”), making a first time application of its Visually Important Ridgeline (VIR) ordinance, required

App. 78
Erickson, as a condition of their building permit, to enter into a management plan and convey a restrictive
deed containing the terms of the management plan in
order to preserve the scenic view of the ridgetop. The
management plan requires Erickson to maintain and
replace trees which would otherwise screen the project
from public view from below in Lake Wildwood and the
adjacent area.
Separately, on an adjoining property owned by the
Nevada Irrigation District, County approved and permitted the construction of a camouflaged Verizon wireless cell tower, to which Erickson objected. Erickson
alleges that County’s ulterior motive in imposing
ridgeline screening was to in fact screen the Verizon
cell tower, not their property.
Factual and Procedural History
The Court sets forth a short chronological synopsis
of relevant events:
03/16/2011: Plaintiffs submit their site and architectural plans for a building permit.
07/12/2012: County Planning conditionally approves pemlit, subject to application
of County’s VIR ordinance, including
management plan.
07/19/2012: Plaintiffs file their appeal of Conditions #2 and #3.

App. 79
11/13/2012: Plaintiffs’ appeal of permit conditions is denied by the County’s Board
of Supervisors (hereinafter, “BOS”).
03/28/2013: Plaintiffs file their initial Complaint
for Inverse Condemnation and for
Writ of Mandamus.
06/06/2013: Plaintiffs file their First Amended
Complaint Inverse Condemnation and
for Writ of Mandamus.
05/09/2014: Hearing on Writ.
05/19/2014: Court issues its written ruling on
Writ (hereafter “Writ 1”). Matter remanded to BOS for further proceedings.
07/15/2014: County issues further approval letter
following Court’s remand.
07114/2014: Plaintiffs file further appeal of revised conditions #2 and #3.
08/12/2014: Plaintiffs’ appeal of conditions #2
and #3 is denied by BOS.
09/29/2014: Plaintiffs file Supplemental Complaint following completion of the
further BOS proceedings on remand.
12/19/2014: Court conducts further trial on the
writ proceedings following completion of the remand to the BOS.
12/31/2014: Court issues ruling granting Writ in
part (hereafter “Writ 2”).

App. 80
01/20/2015: County files alternate motions to vacate ruling, reconsider ruling, or for
new trial.
03/06/2015: Court denies County’s motions, but
reconsiders and modifies its ruling on
the Court’s own motion. No change in
result. Among other findings, Court
concludes that County has not provided authority for its imposition of a
deed restriction, either by the VIR ordinance or other authority.
07/10/2015: Parties file their respective Pretrial
Statements. For the first time, County
provides authority (Land Use and
Development Code § L-II 4.3.3) for
its imposition of a deed restriction.23
07/24/2015: Pretrial Conference conducted with
respect to the pending trial of the inverse condemnation claim. Court addresses issues raised by parties and
Court concerning prior rulings and
pending inverse condemnation trial.
Court orders briefing. Simultaneous
briefing schedule set. Matter continued to 08/25/2015.
08/07/2015: Parties file opening briefs. For the
first time, Plaintiffs specifically argue inapplicability of VIR ordinance
per § L-II 4.3.2.

23

Unless otherwise noted, all references are to the Nevada
County Land Use and Development Code.

App. 81
08/11/2015: Upon review of opening briefs, Court
identifies further issue concerning
applicability of VIR ordinance and orders briefing on that issue.
Issues raised at 07/24/2015 Pretrial Conference
At the Pretrial Conference, the Court discussed its
concern that its prior rulings may have been undercut
by the latent authority provided by County and that
any incorrect prior ruling would poison the remaining
issues to be tried. Further, issues raised by the parties
in their respective pretrial briefs indicated a need to
clarify certain of the Court’s prior rulings. In order to
resolve these issues and clearly identify trial issues,
the following issues were identified, either by the parties, or by the Court on its own motion:
1. Does the Court have continuing jurisdiction to
amend, modify, reconsider, vacate or re-decide Writ 2?
2. Has the Court previously made a “taking”
finding in the writ proceedings that is binding upon the
parties in the remaining inverse condemnation cause
of action?
3. Did the Court correctly decide the Writ 2 holding that a Civil Code §815 et seq. conservation easement was improperly imposed as a condition of the
Erickson building permit? Specifically, was the imposition of a restrictive deed authorized by other provisions
of law, taking it out of the ambit of §815?

App. 82
4. If Writ 2 decided the §815 issue correctly, does
that determination apply not only to the deed, but the
management plan terms which serve as the basis for
the deed?
5. Should the Court grant or deny County’s motion pursuant to Code of Civil Procedure § 1260.040?
Issues #1 through 4 concern the writ proceedings.
The remaining issue #5 concerns the inverse condemnation cause of action. These issues are discussed seriatim.
1. Does the Court have continuing jurisdiction to amend, modify, reconsider, vacate or
re-decide Writ 2?
No judgment has been entered on Writ 2. Additionally, because the inverse condemnation remains to
be tried, the action is not complete for purposes of any
appeal. Morehart v. County of Santa Barbara (1994) 7
Cal.4th 725, 743. On this point both parties seem to
agree. Further, without continuing jurisdiction, the
Court would be forced to simply perpetuate any prior
error in disposing of the remaining cause of action, or
alternatively, make inconsistent findings within the
same action.

App. 83
2. Has the Court previously made a “taking” finding in the writ proceedings that is
binding upon the parties in the remaining inverse condemnation cause of action?
In Writ 1 this Court found “Condition #2 to constitute a taking”, and further explained that “The proposed negative declaration is unsupported by the facts,
and is overbroad, thus failing to show the proper nexus
between the project and the condition. Because of this,
the permanent dedication is constitutionally infirm
and constitutes a taking or an exaction.” The Court
should have been clearer and this finding in fact now
requires clarification.
Erickson asserts that this finding negates the necessity of a “taking” finding at the subsequent inverse
condemnation stage of the proceedings. Whether the
takings issue must be decided in the writ or inverse
condemnation proceedings was previously argued and
discussed in Writ 1.
Erickson argues that the sole purpose of the writ
proceeding is to determine, on the record alone, if there
has been a taking. County argues that Plaintiffs themselves have argued that this determination needs to
be made in the inverse condemnation part of the case
due to the need for evidence that is not present in the
administrative record.24 The Court notes the disconnect between these arguments and the applicable
standard of review for administrative mandamus, that
24

For example, See Petitioner’s Reply Brief in Support of
Writ of Mandate, 04/14/2014, I: 1-5: 11.

App. 84
is, whether the findings of the administrative agency
are supported by substantial evidence, or whether the
agency acted without or in excess of its jurisdiction.
Writ 1 was determined on the substantial evidence
standard.25 Because the negative declaration could not
be factually supported, and because the conditions
were vague and uncertain, the Court found the condition was constitutionally infirm.
Plaintiffs are not precluded from raising the issue
in the inverse condemnation trial if the matter was not
decided in the Writ decision. Healing v. California
Coastal Com. (1994) 22 Cal.App.4th 1158; Patrick Media Group, Inc. v. California Coastal Com. (1992) 9
Cal.App.4th 592, 607-608, 614. Indeed, in Healing, supra, at p. 1178, the Court observed, “ . . . it has become
clear that administrative proceedings are not the
proper forum for consideration of the takings issues
relevant to an inverse condemnation claim and that,
therefore, a petition for writ of administrative mandate does not provide a satisfactory substitute for an
evidentiary trial of those issues.”
Notwithstanding the above arguments, Writ 1
makes no finding that the taking is actual, present, future, contingent, potential, temporary, permanent, or
otherwise. However, the context of the finding is fairly
obvious. The condition, if it were imposed in its then
form, would have been a taking without provision for
25

Erickson makes no request in this proceeding for a determination that abuse of discretion is shown by a failure to follow
the law.

App. 85
compensation. Indeed, because the matter was remanded for further proceedings, it would have been
premature for the Court to determine a present taking,
either temporary or permanent, until that aspect was
completed.26
At this stage, even in light of the rulings the Court
makes below, no actual taking has yet occurred or been
found. While the administrative record shows evidence
to support a prospective taking, and some evidence
that suggests the taking was for an improper purpose
(i.e., to impose on Erickson the requirement to screen
the cell tower), that administrative record alone would
not suffice to adopt a finding under Erickson’s Nollan/
Dolan/Koontz/Ehrlich theory. The administrative record simply does not support a present actual taking.
Rather, it is prospective and contingent.
Erickson has long argued that it may take evidence external to the administrative record to establish its claim for inverse condemnation. They continue
to have that opportunity when the Court makes a liability determination in the initial phase of the inverse
condemnation portion of the case.
In sum, the prior finding is not the law of the case,
is subject to its context, and is not binding on the parties, or the Court, as we proceed forward.27

26

Whether one can at this point retrospectively determine
there to be a temporary taking is discussed below.
27
The Court ratifies other prior Writ 1 findings that Condition #2 is not supported by substantial evidence.

App. 86
3. Did the Court correctly decide the Writ
2 holding that a Civil Code §815 et seq. conservation easement was improperly imposed as a
condition of the Erickson building permit?
Specifically, was the imposition of a restrictive
deed authorized by other provisions of law,
taking it out of the ambit of §815?
The foregoing issue was raised because of the following evolution of the problem. The Court initially determined in its 12/31/2014 ruling (Writ 2) that the
restrictive deed lacked legislative underpinnings because the VIR ordinance contained no provisions for a
deed in addition to a management plan. The Court concluded that because the deed met the definition of a
conservation easement (Civil Code §815.1), that it was
unlawfully required as part of a permit process (Civil
Code §815.3(b)). In this regard, the Court specifically
considered San Mateo County Coastal Landowners’
Assn. v. County of San Mateo (1995) 38 Cal.App.4th
523, which stands for the proposition that easements
and restrictions imposed under other provisions of law
are not “conservation easements” for purposes of applying Civil Code §815 et seq. However, no party had
provided the Court with any authority for a deed. Instead, County’s argument was that the authority was
inherent in the management plan provisions of the
VIR ordinance, which this Court determined to be insufficient authority.
County requested reconsideration of the ruling on
January 20, 2014, without citation to Land Use Code
§L-II 4.3.3. It was not until receipt of its Pretrial

App. 87
Statement on July 10, 2015, some six months later,
that County first asserted this new legal basis for the
deed, which is not found in the VIR ordinance, but in
the General Provisions for the County’s Resource
Standards. (The VIR ordinance falls within the provisions of the Resource Standards (Land Use and Development Code §L-II 4.3).) After reviewing §L-II 4.3.3
(which extensively discusses management plans and
deeds), this Court noted at the 08/24/2015 Pretrial
Conference that had it been aware of such authority
for a deed, it would have decided Writ 2 oppositely because the legal argument now showed the restrictive
deed not to be governed by Civil Code §815 et seq.,
which is 180 contrary to the Court’s prior finding. This
presented a conundrum as to how the Court should
proceed with the inverse condemnation action in light
of the new information. The Court requested briefing.28
In response, and also for the first time, Erickson
directed the Court to §L-II 4.3.2, immediately preceding the aforementioned General Provisions. That section provides:
Resource standards shall apply to all Development Permits, Use Permits, and subdivisions. The
28

The issue was whether San Mateo County Coastal Landowners’ Assn. v. County of San Mateo, supra, 38 Cal.App.4th 523
exception to Civil Code §815 applied by virtue of another “provision of law.” Erickson argued that only another state statute
would satisfy this requirement. County is correct that its ordinances are provisions of law that would support the imposition of
the restrictive deed in question (if the VIR ordinance were in fact
applicable.) The entire issue so framed became moot once Erickson pointed the Court to §L-II 4.3.2.

App. 88
following standards shall also apply to allowable
uses subject to zoning compliance, and building
permit issuance, unless otherwise provided:
1.

Section 4.3.10 Floodplains.

2.

Section 4.3.11.C.3 Significant Mineral Areas,
as required.

3.

Section 4.3.13 Steep Slopes and Erosion Potential.

4.

Section 4.3.17 Watercourses, Wetlands and
Riparian Areas

5.

Section 4.3.18 Wildland Fire Hazard. (Ord.
2090, 7/9/02)

The Court again requested additional briefing.
Erickson argues that a plain reading of L-II 4.3.2
shows that the VIR ordinance is not even applicable to
a building permit, and consequently, that the VIR
standards never should have been imposed. County
argues that the term “Development Permits” simply
unartfully encompasses building permits and that it
does apply. County further argues that even if the
Court should determine the VIR standards do not apply, it is too late for Erickson to raise the issue as they
have not exhausted their administrative remedies in
that regard. County also argues that Erickson waived
any objection by accepting the benefits of a management plan.
Specific briefing was requested on whether the
term “Development Permits” includes building permits.

App. 89
Acknowledging that the Nevada County Code
“Definitions” (§L-II 6) do not specifically define “development permit”, County argues that the definition of
“development”, found in §L-II 6.1, is instructive because it includes the construction of structures and
other activities normally covered by a building permit.
Further, County argues, §L-II 5.4.C. requires building
permit applicants to submit site plans listing “all applicable resources listed in Article 4.3.3. . . .”
This Court cannot agree that the ordinance is
poorly worded in regard to this issue. With certain exceptions, §L-II 4.3.2 makes “Resource Standards” applicable only to Development Permits, Use Permits,
and subdivisions. §L-II 4.3.2 makes only five enumerated standards applicable to building permits. Those
five do not include the VIR standards. Only “applicable
resources” (italics added) are considered under §L-II
5.4.C. when an applicant submits a site plan.
The term “Development Permit”, like the term
‘Use Permit” appears with initial capital letters.29 The
Court sees this as a single term, a specific kind of permit, and not in the generic sense argued by County. In
fact, as Erickson argues, a Development Permit is a
specific kind of permit identified in Land Use Code
§L-II 5.2 for projects described in §L-II 5.5.2. A “Development Permit” is a permit which provides a review
process “for medium and high intensity land uses and
development”.
29

The Court notes, in contrast, that the more generic “building permit” is spelled with lower case letters.

App. 90
County argues that the Declaration of Brian Foss
shows that the Planning Department staff has always
interpreted resource standards to apply to building
permits and never interpreted §L-II 4.3.2 to prohibit
enforcement of resource standards to building permits. However, the facts show that the VIR ordinance
had never been previously applied to any project or
building permit. This was the first time the County
attempted to implement this particular resource
standard. Further, while Courts should generally defer
to counties for the interpretation of their own ordinances, the interpretation cannot be an unreasonable
contradiction to the clear terms of the ordinance, nor a
substitute for enactment of a particular provision, nor
a mechanism that imposes on the public substantial
additional burdens not authorized by the ordinance.
The Court does not view the issue here as one of interpretation. Rather, it is one of jurisdiction and authority.
As to County’s next argument, that Erickson has
accepted the benefits of a management plan, this argument confuses Erickson’s negotiation with their legal
stance. While Erickson initially negotiated in an attempt to alleviate the impact of conditions imposed by
the Planning Department, they never accepted the
conditions, which is the reason they appealed. This
point was specifically argued at the BOS Appeal hearing. AR 0119-0122.
What County has done here, by virtue of the application of its VIR ordinance, is impose a discretionary
process overlay on a purely ministerial process. Land

App. 91
Use and Development Code §L-II 4.3.2 is not applicable to building permits. No VIR had been designated
through any public process as of the date that Erickson
submitted their building permit application. No discretionary decision was necessary and none was authorized.
Prentiss v. City of South Pasadena (1993) 15
Cal.App.4th 85, 87-88 is on all fours with the present
action. Therein, Prentiss sought a building permit for
construction of an addition to their single family home
from the City of South Pasadena, its building and
planning division, and its building and planning director. “Respondents’ application for the building
permit became embroiled in controversy after appellants asserted that respondents’ home was a ‘qualified
historic structure’ within the meaning of the State Historical Building Code,” thereby invoking CEQA procedures. The City “offered to issue a “mitigated negative
declaration” under CEQA and to grant the building
permit, on condition that respondents agree to recommendations of a consulting historical architect for
changes in the building plans to preserve historical architectural compatibility. Prentiss filed an action for
writ of mandate. The appellate court affirmed the trial
court in granting the writ because CEQA did not apply
to the ministerial issuance of the Prentiss building permit. In so holding the Court stated “Because respondents’ application for a building permit required no
variance or conditional use permit and fully complied
with the Uniform Building Code, issuance of the requested building permit was a ministerial act to which

App. 92
CEQA does not apply. Appellants fail to show that
any statute or ordinance gave appellants discretion
to deny the permit on historical architectural grounds.”
Prentiss, supra, at 87.
Like Prentiss, supra, the Erickson building permit
required no variance or conditional use permit and
apparently complied with the Uniform Building Code.
The issuance of a building permit was a ministerial act
to which the VIR process did not apply.
Over time, this case has been one of shifting sands.
While it is now clear to the undersigned that County
failed to follow its own resource standards by making
the VIR applicable to the Erickson building permit, the
Court finds disturbing the failure to raise this issue in
the four plus years since the first submission of building plans. County argues that it is too late.
Whether Erickson’s argument is timely is a two
step analysis. First, was the issue raised in the administrative record and the pleadings, and secondly, if not
raised, is the issue one which can be raised at any stage
of the proceedings?
The first step is essentially an exhaustion of administrative remedies issue. “The inquiry in an administrative mandamus proceeding is whether there was
a fair trial and whether the agency abused its discretion. An abuse of discretion is established if the
agency has not proceeded in the manner required by
law, the order is not supported by the findings or the
findings are not supported by the evidence. (Code Civ.

App. 93
Proc., § 1094.5, subd. (b).)” (Usher v. County of Monterey, (1998) 65 Cal.App.4th 210, 215.)
Pursuant to Code of Civil Procedure § 1094.5(b),
the inquiry in an administrative writ proceeding shall
extend to whether the respondent has proceeded without, or in excess of, jurisdiction; whether there was a
fair trial; and whether there was any prejudicial abuse
of discretion. To prevail on grounds of abuse of discretion, plaintiff must establish that the County did not
proceed in the manner required by law, its decision is
not supported by the findings, or the findings are not
supported by the evidence.
Where it is claimed that an agency’s decision is not
supported by findings, the inquiry is whether the
agency rendering the adjudicatory decision set forth
findings that enable a reviewing court to trace and examine the agency’s mode of analysis and bridge the analytical gap between raw evidence and the decision or
order. Topanga Association for a Scenic Community v.
County of Los Angeles (1974) 11 Cal.3d 506, 515.
Petitioner has the burden of proof in an administrative mandamus proceeding in establishing that an
agency’s decision should be set aside. Arwine v. Board
of Med. Examiners (1907) 151 Cal. 499, 503; Evidence
Code §664. In reviewing the evidence, all conflicts must
be resolved in favor of the prevailing party. Western
States Petroleum Assoc. v. Superior Court (1995) 9
Cal.4th 559, 571.
County argues that Erickson failed to raise the
exact issue in the administrative proceedings, citing

App. 94
Tahoe Vista Concerned Citizens v. County of Placer
(2000) 81 Cal.App.4th 577, 590 and Hagopian v. State
of California (2014) 223 Cal.App.4th 349.
Following County’s conditional approval on July
12, 2012, Erickson appealed Conditions #2 and #3,
which included a management plan and restrictive
deed based on an application of the VIR ordinance.
Their appeal notice claimed that “The conditions and
restrictions go far beyond what is required to screen
the rooftop of the Lockyers’ proposed garage/office
building from lines of sight. . . . and are impose[d] as
an unconstitutional taking in order to ensure the retention of a background canopy for the proposed cell
tower. . . .” Citing differences in dealing with ridgeline
applications between their property and the cell tower,
Erickson claimed a taking without due process and
compensation, a violation of the Fourteenth Amendment of the U.S. Constitution.
Petitioners asserted three grounds for writ relief
in their Corrected Complaint filed May 17, 2013:
1)

No findings based on substantial evidence;

2) The restrictions imposed are not reasonably
necessary to effectuate a substantial governmental
purpose; and
3) The County’s conduct constitutes a taking in
violation of Plaintiffs’ 5th Amendment constitutional
rights.
In their Opening Brief in Support of Writ of Mandate, filed March 3, 2014, Erickson argued, inter alia,

App. 95
that County had made no evidentiary finding that the
ridge was in fact a VIR and that County had no prior
inventory or determination of VIR status.30 County
made its first argument that Erickson had failed to exhaust administrative remedies because these exact issues were not presented to the BOS.
In Writ 1, this Court discussed the exhaustion issue in determining whether application of the VIR was
supported by substantial evidence and whether the issue had been adequately preserved in the administrative proceedings. This Court found that Erickson had
done enough to preserve the issue because Erickson
raised issues of whether the project was within certain
sightlines and whether the project was above or within
the tree canopy, thus permitting County to address
its findings that the property was subject to a VIR.31
Specifically, this Court ruled that “the imposition of a
Management Plan pursuant to the VIR ordinance is
predicated on a finding that the ridgeline in question
is in fact a VIR as defined in the ordinance. In order
[for] the Petitioners to challenge the constitutionality
of the negative easement, they must be permitted to
establish all facts supporting that challenge.”

30

Following completion of remand proceedings before the
BOS, Erickson’s supplemental appeal filed 07/14/2014 specifically
raised these arguments.
31
In the Court’s 05/19/2014 ruling on Writ I, the undersigned
found that “While not articulated perfectly, Petitioners did object,
stating, ‘There was no evidence whatsoever presented at the Verizon hearing, however, that the ridgeline when viewed from the
east was visually significant to anyone.’ [AR 0068-0069.]”

App. 96
Upon further review of the administrative record
on this issue, Attorney Haley in fact directly raised the
issue of no prior VIR finding at the BOS appeal hearing. AR 0119-0122. Thus, not only was the exact issue
raised, but the [ ] exact argument was additionally
raised, that is, Conditions #2 and #3 were improper because there was no predicate finding of a VIR at the
time of the Erickson application.32 This argument has
additional impact in light of §L-II 4.3.2 because not
only was there no predicate finding, but no such finding could be made due to the inapplicability of the VIR
resource standard. On this basis alone, it is clear that
Erickson exhausted all administrative remedies.
The current issue, however, is not whether findings support the VIR, but whether the VIR resource
standard even applies in the first instance. The Court
views this as simply two sides of the same coin. Basic
authority to impose the conditions lies at the heart of
their validity.
As noted in Mani Brothers Real Estate Group v.
City of Los Angeles (2007) 153 Cal.App.4th 1385, 13941395:
The rationale for exhaustion is that the
agency “‘is entitled to learn the contentions of
interested parties before litigation is instituted. If [plaintiffs] have previously sought administrative relief . . . the [agency] will have
32

In light of §L-II 4.3.2, this Court’s prior Writ 2 ruling that
the VIR finding could be made in the building permit process is
incorrect and hence that ruling is vacated.

App. 97
had its opportunity to act and to render litigation unnecessary, if it had chosen to do so.” ’
(Citizens Assn. for Sensible Development of
Bishop Area v. County of Inyo (1985) 172
Cal.App.3d 151, 162-163.) The “exact issue”
must have been presented to the administrative agency to satisfy the exhaustion requirement. (Resource Defense Fund v. Local Agency
Formation Com. (1987) 191 Cal.App.3d 886,
894.) However, “less specificity is required to
preserve an issue for appeal in an administrative proceeding than in a judicial proceeding”
because, although not the case here, parties in
such proceedings generally are not represented by counsel. (Citizens Assn. for Sensible
Development of Bishop Area v. County of Inyo,
supra, 172 Cal.App.3d at p. 163.)
The “exact issue” appears to be more one of identification, rather than setting forth every possible argument. Less specificity is required for appeal in an
administrative proceeding than in a judicial proceeding. An analysis of the cases using the term “exact issue” seems to indicate a more generic approach than
that urged by County. Thus, general objections to a project are not sufficient, but objections to specific elements are specific enough.
In Mani, supra, 153 Cal.App.4th 1385, at p. 13951396, the Court held that petitioners raised the issues
sufficiently by letters to City Council stating that an
amended development plan would “create new substantial environmental effects and increase the severity of previously identified effects, such as the impact

App. 98
on public services, traffic and shade and shadow”, that
the City should prepare a supplemental EIR, that the
changes would “introduce new significant effects on
public services, such as fire protection, police protection, schools and parks”, etc.
In Hagopian v. State of California, supra, 223
Cal.App.4th 349, at 370-371, a Coastal Commission enforcement proceeding concerning Petitioner’s unpermitted development of property, the court held that the
Petitioners failed to exhaust administrative remedie[s]
where “petitioners made no substantive showing at the
hearing, objecting primarily on due process and jurisdictional grounds” but later made a new specific argument concerning historical use of their property as
ground for an exemption to the required permit.
In Tahoe Vista Concerned Citizens v. County of
Placer, supra, 81 Cal.App.4th 577, cited by County, the
challenge was to a conditional use permit. Plaintiffs
sued challenging the project’s negative declaration and
parking requirements, but their administrative appeal
only specified the parking issue. It was held that the
plaintiffs exhausted administrative remedies as to the
parking issue, but were precluded as to the negative
declaration.
This case is similar to the kind of exactness required in Tahoe Vista, supra. Here, plaintiffs did not
challenge every condition. Only two specific exact conditions were appealed. The issues at the administrative level and appeal included argument concerning
lack of a prior VIR finding, whether the VIR ordinance

App. 99
even applied to the project and how the VIR was applied. Basic authority to impose such conditions was
implicit. This Court is of the view that the appeal of
Conditions #2 and #3 was sufficiently specific so that
the County had the opportunity to evaluate and respond to them.
Notwithstanding, the Court next looks to whether
Erickson may raise the §L-II 4.3.2 issue regardless of
exhaustion of administrative remedies. Previously,
Erickson argued that constitutional issues may be
raised at any time.33 Erickson relied on Healing v.
California Coastal Com. (1994) 22 Cal.App.4th 1158,
State of California v. Superior Court of Orange County
(1974) 12 Cal.3d 237 and Buckley v. California Coastal
Com. (1998) 68 Cal.App.4th 178.
Orange County, supra, is not particularly helpful.
The issue there was whether the agency had the power
to determine a constitutional challenge to the underlying law it was administering. There is no similar issue
here in that Erickson is not constitutionally challenging the VIR ordinance.
Buckley, supra, is more on point. Therein the
Court held that where the agency lacks subject matter
jurisdiction, the petitioners were not required to file a
writ petition or exhaust administrative remedies. In
33

Because of the simultaneous briefing which does not give
Erickson the opportunity to file written response to the exhaustion arguments, on its own motion, the Court takes Judicial Notice of Petitioners’ Reply Brief in Support of Writ of Mandate filed
04/14/2014.

App. 100
that case, the Coastal Commission had no role in the
permit requested and hence no jurisdiction to impose
conditions. The Court stated at p. 190-191:
Subject matter jurisdiction cannot be conferred by consent, waiver or estoppel. (Citations omitted.) Therefore, the fact that the
Buckleys filed an application for a coastal development permit and the Commission denied
the application did not confer on the Commission jurisdiction over the improvement of the
lot. Because the Commission had no authority
to deny the permit, the Buckleys were not required to seek judicial review of the denial. We
do not disagree with any of the authorities
cited by the Commission for the proposition
that failure to obtain judicial review of a determination by an administrative agency by
a timely petition for writ of administrative
mandate renders the administrative action
immune from collateral attack. (Citations
omitted.) We simply hold that the cases do not
apply here. fn. 4
The rule of exhaustion of administrative remedies does not apply where the subject matter
lies outside the administrative agency’s jurisdiction. (Public Employment Relations Bd. v.
Superior Court (1993) 13 Cal.App.4th 1816,
1827 [17 Cal.Rptr.2d 323]; Residents for Adequate Water v. Redwood Valley County Water
Dist. (1995) 34 Cal.App.4th 1801, 1808 [41
Cal.Rptr.2d 123].) The Commission had no
power to deny the Buckleys permission to improve any portion of their lot. Because it
lacked power to make any determination, the

App. 101
denial of a permit to the Buckleys was a void
act that could be set aside at any time. (Citation omitted.)
In this case, County has basic subject matter authority to issue building permits. This is a ministerial
duty carried out by the Building Department through
its Building Official. The Building Official defers review of the site plan to the Planning Department. It
was the site plan review that produced the subject conditions at play here.
The Planning Department derives its authority to
review site plans by delegation from the County.
County cannot delegate unlawful acts to the Planning
Department and the authority of the Planning Department is limited by the authority so delegated. Applied
here, County and the Planning Department have limited authority to apply resource standards to the ministerial issuance of a building permit, and that limited
authority does not include the VIR resource standards.
See Prentiss v. City of South Pasadena, supra, 15
Cal.App.4th 85.
While Buckley and like cases do not adequately
address the distinction between acting without jurisdiction and in excess of jurisdiction, this is not an instance of County and its Planning Department acting
in excess. An example of that might be if the VIR was
properly applied, but County required something more
than a management plan, such as a ridgeline hiking
trail across the Erickson property. Rather, the decision
at issue in this case goes to the heart of the agency’s

App. 102
authority to make any application of the VIR ordinance at all.
Similar to Buckley, where the Planning Department lacks subject matter jurisdiction, the petitioners
are not required to file a writ petition or exhaust administrative remedies. That issue may be raised at any
time.
Further, failure to exhaust administrative remedies is excused if it is clear that exhaustion would be
futile. (Sea & Sage Audubon Society, Inc. v. Planning
Com. ( 1983) 34 Cal.3d 412,418. County’s declarations
unequivocally show that County applies all resource
standards to every building permit application. County
equally clearly, to this day, doggedly justifies its imposition of the VIR standards, despite the clear language
of its ordinance to the contrary. The implication is that
County would have made the same arguments here,
even if Erickson had raised the issue.
Thus, this issue #3 is now somewhat recast.
Whether the restrictive deed and management plan
are conservation easements is a moot issue, even
though they continue to fit the definition of Civil Code
§815 et seq. Rather, these conditions are unlawfully imposed because County had no authority to do so in the
first instance in connection with the issuance of a
building permit. This is especially true where there
has been no prior finding of a VIR.
In light of the above analysis, the court must again
reconsider its prior ruling. The Court vacates its finding in Writ 2 that the VIR ordinance could be applied

App. 103
at the building permit stage, and all findings that such
application of the ordinance in this case is supported
by sufficient findings and evidence. Consequently, all
conditions resulting from the application of the VIR ordinance, including both the deed and the management
plan, are jurisdictionally deficient in light of the failure
to show any legal basis for imposing them.
The Writ 2 ruling and order is amended in that
regard and the Court now orders that a writ will issue
requiring County to delete such conditions and ordering the issuance of the Erickson building permit. In
this regard, the Court further finds that the permit applications did not expire because their issuance was
tolled by County’s improper application of the VIR ordinance to the Erickson permit. County is estopped to
argue otherwise. Counsel for Erickson shall prepare
the peremptory writ of mandate at such time as judgment is entered on this and the remaining issues.
(Erickson requests that the writ issue now. County
objects, citing Morehart v. County of Santa Barbara
(1994) 7 Cal.4th 725 and Kurwa v. Kislinger (2013) 57
Cal.4th 1097. County’s objection is valid. Erickson’s request for an immediate writ to issue is denied.)
4. If Writ 2 decided the §815 issue correctly, does that determination apply not only
to the deed, but the management plan terms
which serve as the basis for the deed?
On the basis of the foregoing, the entirety of Conditions #2 and #3 are invalid.

App. 104
5. Should the Court grant or deny County’s
motion pursuant to Code of Civil Procedure
§1260.040?
County’s motion raises the following issues, which
are discussed in order:
First, is the motion available in this proceeding?
Yes. Dina v. People ex rel. Dept. of Transportation
(2007) 151 Cal.App.4th 1029.
Second, is the case ripe for decision? Yes. County’s
claim that the case is not ripe is unsupported. Ripeness
cases such as Williamson Planning Comm’n v. Hamilton Bank (1985) 473 U.S. 172 [87 L.Ed.2d 126, 105
S.Ct. 3108, Hensler v. City of Glendale (1994) 8 Cal.4th
1, and San Mateo County Coastal Landowners’ Assn.
v. County of San Mateo (1995) 38 Cal.App.4th 523 apply when a generally applicable ordinance or law is enacted and a challenge made without first seeking an
individualized determination of the application of that
ordinance to the property in question. For example,
this might occur when a county adopts a general plan
that limits previously allowed development density
and the plaintiff (without first making any application
at all for use or variance), sues the county for inverse
condemnation, assuming an adverse application of the
new law. Here, the VIR ordinance is such a general law,
but Erickson’s claim is not that the adoption of the VIR
ordinance itself has caused a taking of their property
(not ripe), but that its individualized application to the
Erickson property has caused a taking through the
permit process (ripe).

App. 105
Even in the absence of an individualized application, the ripeness rule does not apply if its application
would be futile. Thus, even if the permit process were
not complete, the County has been abundantly clear as
to its intent to apply the VIR ordinance. As the ruling
above indicates, any further action on Erickson’s part
would be futile.
Third, does the Nollan/Dolan/Ehrlich/ Koontz rule
apply here? Perhaps. Whether this case is a land use
regulation case (as County argues) or a takings case
(as Erickson argues) is yet to be determined. If Erickson fails to show a taking under Nollan/Dolan and similar cases, then this is simply a land use regulation
case and nothing more. Whether it is a takings case
depends on evidence to be produced at trial. As noted
earlier in these proceedings, County cannot dictate the
theory of the Erickson’s case.
Fourth, whether there has been a temporary taking? As discussed above, the Court has not made that
determination. Both Landgate, Inc. v. California Coastal
Com. (1998) 17 Cal.4th 1006 and Buckley v. California
Coastal Com. (1998) 68 Cal.App.4th 178 hold that the
mere delay and misapplication of an ordinance or law
is not in itself sufficient to establish damages for a taking. The imposition of a condition to effect an unlawful
objective is required. The Court assumes that issue
will be addressed at the inverse condemnation trial.
Thus, this Court concludes that the motion, while
applicable to this case, should be and is denied.

App. 106
IT IS SO DECIDED AND ORDERED:
DATED: August 25, 2015 /s/ Sean P. Dowling
SEAN P. DOWLING
Judge of the Superior Court

App. 107
S. PAONE
FILED
AUG 17 2016
Superior Court of the
State of California
County of Nevada
IN THE SUPERIOR COURT OF THE
STATE OF CALIFORNIA IN AND FOR
THE COUNTY OF NEVADA
JULIET ERICKSON and
PETER LOCKYER,

CASE NO.: CU13-079389
JUDGMENT

Petitioners/Plaintiffs,
vs.
County of Nevada,
Respondent/Defendant.
This matter having been heard on an original and
supplemental petition for writ of mandamus, and having been tried and submitted on an amended and supplemental complaint for inverse condemnation, and
having rendered its Statement of Decision, the Court
now enters judgment herein as follows:
1. Let a writ of mandate issue from this Court to
the Respondent/Defendant County of Nevada prohibiting said County of Nevada from imposing Conditions
#2 and #3 described in the petition/complaint as conditions to Defendant’s issuance of all permits necessary for them to proceed with their building project at
14060 Pleasant Valley Road, Penn Valley, California,

App. 108
as said building project was otherwise previously submitted and approved by the County Building Department on July 25, 2011. The Court retains jurisdiction
to the extent necessary to resolve any dispute over the
implementation of its mandate.
2. Plaintiffs shall take nothing on their claim for
Inverse Condemnation.
3. Because the Court finds the primary objective
of the litigation to be the removal of the offending conditions, which objective Plaintiffs achieved in Writs #1
and #2, Plaintiffs are entitled to recover their costs.
IT IS SO ADJUDGED AND DECREED.
DATED: August 17, 2016.
s/ Sean P. Dowling
SEAN P. DOWLING
Judge of the Superior Court,
Assigned

App. 109
Court of Appeal, Third Appellate District –
No. C082927
S266541
IN THE SUPREME COURT OF CALIFORNIA
En Banc
JULIET ERICKSON et al., Plaintiffs and Appellants,
v.
COUNTY OF NEVADA, Defendant and Respondent.
(Filed Mar. 17, 2021)
The petition for review is denied.
CANTIL-SAKAUYE
Chief Justice

